T Q fjif
k"*v

No.

20-30097
Supreme Court, U.S. •
FILED

MAR 2 6 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

George Verkler

— PETITIONER

(Your Name)
vs.
United States of America

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Ninth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
George Verkler
(Your Name)

;

407 E. Young St.
(Address)
Elma, WA 98541
(City, State, Zip Code)
253-235-1780
(Phone Number)

RECEIVED
APR -1 2021

QUESTIONS PRESENTED
Does the presumption of innocence and due process mean that if a judge will not
read everything Mr. Verkler, the Defendant in a criminal case submits to the court, or if the
prosecution admits that American is actually innocent that the judge must rule in favor of
the Defendant?
Doesn’t a defendant in a criminal case have the right to assistance of counsel?
Doesn’t an American defendant in a criminal case have the right to effective
assistance of legal counsel?
How many times does Mr. Verkler have to win his case before it sticks?
Doesn’t Mr. Verkler as a defendant in a criminal case have the right to appeal and
attack a completely unconstitutional, illegal, baseless and unjust decision?
Since USA breached the plea contract and refuses to remedy the breach can’t Mr.
Verkler rescind the contract and withdraw the guilty plea?
Can USA add to a defendant’s sentence without a court proceeding?
Doesn’t a US/Washington State citizen have any protection under the Constitution
and Laws?
Isn’t it true that there is nothing in the U.S. Constitution or federal law that gives
the government or anyone in the government authority to commit a crime, a tort, conspire
or he against an American?

LIST OF PARTIES

IXl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

in

TABLE OF CONTENTS
TABLE OF CONTENTS

1

QUESTIONS PRESENTED

.11

LIST OF PARTIES.............

in

OPINIONS BELOW............

iv

JURISDICTION.

,v

FORMA PAUPERIS and AFFIDAVIT OF INDIGENCY.

,vrxv

TABLE OF AUTHORITIES

xvrxxxn

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

xxxiii-Lviii

STATEMENT OF THE CASE

1-12

REASONS FOR GRANTING THE WRIT.

13-38

CONCLUSION................

39

APPENDEX A Orders.....

Lix-Lxvi

APPENDEX B Judgment.

Lxvii-Lxix

10 extra copies of FORMA PAUPERIS & AFFIDAVIT OF INDIGENCY....vi-xv
10 extra copies of TABLE OF AUTHORITIES........................................

xvrxxxn

10 extra copies of CONSTITUTIONAL & STATUTORY PROVISIONS..... xxxiii-Lviii
10 extra copies of STATEMENT OF THE CASE.....................

1-12

10 extra copies of REASONS FOR GRANTING THE WRIT..

13-38

10 extra copies of CONCLUSION.............................................

39

10 extra copies of APPENDEX A Orders........ .........................

Lix-Lxvi

10 extra copies of APPENDEX B Judgment............................

Lxvii-Lxix

l

% -

JURISDICTION

jXI For cases from federal courts:
The date on which the United States Court of Appeals decided my case
12/09/2020
*
was 01/04/21
[ ] No petition for rehearing was timely filed in my case.
A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. G. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was__ 1
A copy of that decision appears at Appendix______
[ 3 A timely petition for rehearing was thereafter denied on the following date:
____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

TABLE OF AUTHORITIES USED IN REASONS FOR GRANTING THE PETITION
CASES

PAGE NUMBER
Due Process: Bell v Wolfish. 441 US 520, 521,535-7, 543,545 (1979);

13

US v Bagiev. 473 U.S. 667, 682-83 (1985);

15

Re Oliver. 333 US 257, 273 (1948);

15

Tones v Horne (2011, App DC) 394 US App DC 361, 634 F.3d 588;
Poe v US (1964, DC Dist Col) 229 F Supp 6;

13
16

Ferrara v US. 456 F.3d 278, over, 286, 289,30th, 34th pg (1st Cir 2006);

16

Hubbard v Tavlor (2005, CA3 Del) 399 F.3d 150;

13-14

US v Tavlor (1962, CA4 NC) 303 F.2d 165;

14

US v Strickland. 509 F.2d 273, 277 (5th Cir 1975);

17

Cupit v Tones (1987, CA5 La) 835 F.2d 82;

14

Malone v Colver (1983, CA6 Tenn) 710 F.2d 258;

13

Matzken v Hen (1984, CA7 Ill) 748 F.2d 1142;

14

Green v Baron (1989, CA8 Iowa) 879 F.2d 305;

14

Chizen v Hunter. 809 F.2d 560,561-3 (9th Cir 1986);

16

Henderson v US (1964, ND Cal) 231 F Supp 177;

16

Berry v Muskogee (1990, CA10 Okla) 900 F.2d 1489;

14

Right to assistance of legal counsel:
!

Glasser v US. 315 US 60, 76 (1942);

15

Tohnson v Zerbst. 304 US 458 (1938);

15

xvi

Powell v AL. 287 US 45, 69 (1932);

15

US v Wade. 388 US 218, 226 (1967);

15

US v Mala (1993, CA1 Pueto Rico) 7 F.3d 1058, cert den 511 US 1086 (1994);
US v Iasiello (3rd Cir Pa. Jan 22,1999) 166 F.3d 212;

14
15

Green v US (8th Cir Minn Aug 17, 2001);

15

Roney v US (8th Cir Mo, Mar 7, 2000), 205 F.3d 1061;

15

Frazer v US. 18 F.3d 778 (9th Cir 1993);

15

US v Velazquez. 855 F.3d 1021,1034 (9th Cir 2017);

15

US v Duarte-Higareda (1995, CA Cal) 68 F.3d 369;

14

US v Leopard (10th Cir Okla. Mar 16,1999), 170 F.3d 1013;

15
A

US v Maxwell (10th Cir Okla, June 12, 2006);
Shepherd v US (11th Cir Fla. June 6, 2001);

15
15

St of WA v Delila Reid. 98358-3 No 36274-4-III (2020). -

15
'w

Right to assistance of effective legal counsel:
Glasser v US. 315 US 60, 69-70 (1940 or i'942);

‘

15

c . r

US v Gonzalez-Lopez. 548 U.S. 140,150 (2006);

17

US v Nguven. 262 F.3d 998,1005 (9th Cir 2001);

17

Double Jeopardy and Multiple Punishments Prohibited:
Blackledge v Perry, 417 US 21, 24, 30 (1974);

18

Merrna v NY. 423 US 61, sum, 62 (1975);

18

XVll

Hart v Harris (1964, WD Mo) 228 F Supp 856);

18

Mansolilli v US. 2 F.2d 42, 43;

18

Meyers v US. 3 F.2d 379, 380;

18

The right to appeal or collateral attack and to win:
Abnev v US. 431 US 651 (1977);

21

Hambine v US. 418 US 87,117 (1974);

20

Rodriquez v US 395 US 327 (1969);

19

Covey v US (2000, DC SD) 109 F.Supp 2d 1135;

20

US v Spinner. 180 F.3d 514, 516 (3rd Cir 1999);

21

US v Taylor (1962, CA4 NC) 303 F.2d 165;

20

Cook v US (1975, CA Tex) 521 F.2d 875;

19

Thor v US (1977, CA5 Tex) 554 F.2d 759;

20

lohnson v Renico. 314 F.Supp 2d 700, 706 (DC ED Mich 2004);

19

US v Camp (1976, CA8 Iowa) 541 F.2d 737;

18

Craig v US (1937, CA9 Cal) 89 F.2d 980;

20

DovlevUS (1983, CA9 Or) 721 F.2d 1195;

19

Woodward v Williams. 263 F.3d 1135.1140 (10th Cir.2001);

19

US v Burch (1999, CA10 Colo) 169 F.3d 666;

21

Williams v US (1960, CA10 Kan) 283 F.2d 59;

20

xvni

Right to an impartial judge: Glasser v US. 315 US 60, 72 (1942);

21

Goldberg v Kelly. 397 US 254 (1970);

22

Hallidav v US. 380 F. 2d 270 (1st Cir 1967);

22

Hamdi v Rumsfeld. 542 US 547, III D (2004):

23

In re Murchison. 349 US 133 (1955);

22

Old Colony Trust Co. v Commissioner of Int Rev. 279 US 716 (1929);

23

Turney v. Ohio, 273 U. S. 510, 522 (1927);

23

United Retail and Wholesale Employees Teamsters Union Local No. 115 Pension
Plan v Yahn and McDonnell. Inc, 787 F.2d 128,138 (3rd Cir 1985);
US v Cross (3rd Cir 2002) ? p 145,147-8;

22,23
23

Great Western Mining and Material Co v Fox Rothschild LLP (2010, CA3 NJ)
615 F.3d 159, cert den (2011, US) 131 S Ct 1798;

23-4

Nesses v Shepard. 68 F.3d 1003, 1005 (7th Cir 1995);

24

Stewart v Tozwiak. 346 F. Supp. 1062 (E.D. Wis. 1972);

22

Board of Educ. v. Rice. [1911] A.C. 179; H;

23

Rex v. University of Cambridge. I Str. 557, 568 (1723).

23

Right to an hearing: Boddie v Connecticut. 401 U.S. 371,378 (1971);
Dunn v US. 442 US 100,107 (1979);

25

24

Goldberg v Kelly. 397 U.S. 254,267-68, 271 (1970);

24

Groppi v Leslie (1972) 404 US 496, 30L ED 2d 632, 92 S Ct 582;

25

Goss v Lopez. 95 S. Ct. 729 (1975);

24

Joint Anti-Fascist Refugee Committee v McGrath. 341 U.S. 123,171-2 (1950);

xix

24

Londoner v Denver. 210 U.S. 373, 386 (1908);

24

Machibroda v US. 368 US 487,495 (1962);

25

North Ga. Finishing, Inc, v Di-Chem, Inc., 95 S. Ct. 719, 723 (1975);

24

Walker v Tohnston, 312 US 275, 287 (1941);

25

Willner v Committee on Character. 373 U.S. 96,102 (1963);

25

Wolff v McDonnell. 418 U.S. 539, 557-58 (1974);

25

Mack v US (1980, CA1 Mass) 635 F.2d 20;

24

Billington v Underwood (1980, CA5 GA) 613 F.2d 91;

24

Stewart v Tozwiak, 346 F. Supp. 1062,1064 (E.D. Wis. 1972);

25

loint Anti-Fascist Comm, v McGrath. p349 ? (1950).

25

N

Breach of contract needs to stop if the government has any honor:
Santobello v NY. 404 US 257 (1971);

25

US v Puckett. 556 US 129,129 S Ct 1423,173 L Ed 166 (2009);
US v Pollard. 959 F. 2d 1011 (295 App DC 7) (9/10/91);

25
25

Kingsley v US. 968 F.2d 109 (1992, CA1 Mass);

25

Dunn v Collaran, 247 F.3d 450,462, Penn 12/7/2000;

25

Cosby v Muncy (1979, ED Va) 469 F Supp 658;

25

Bryan v US. 492 F.2d 775, 776, 778 (5th Cir 1974);

25

US v Ammirato. 670 F.2d 552, 554-5 (5th Cir 1982);

25

US v Saling. 205 F.3d 764 (5th Cir 2000);

25

US v Gonzalez (2002, CA5 Tex) 309 F.3d 882;

25

xx

It is an abuse of discretion to apply the wrong legal standard:
Goldberg v Kelly. 397 US 254 (1970);

26

Tohnson v Zerbst. 304 US 458 (1938);

26

Hallidav v US. 380 F. 2d 270 (1st Cir 1967);

26

Marino v Ragan. 332 US 561 (1947);

27

US v Dozier. 672, F.2d 531, #100 (5th Cir 1982);

26

US v Ruiz. 257 F.3d 1030, 1033 (9th Cir. 2001);

26

Arce v Garcia. 434 F.3d 1254,1260 (11th Cir 2006).

26

Illegal punishment:
Ferrara v US (2006, CA1 Mass) (1st Cir 2006) 456 F.3d 278,17th pg.

28

Speedy Trial Act: US v Marion, 404 US 307, 320, 331 (1971);

3

The right of every individual to claim protection of the Constitution and laws:
Agnello v US. 269 US 20, 32 (1925);

28

Berger v US. 295 US 78, 82 (1935);

5

Blackledge v Perrv. 417 US 21, 28-9 (1974);

32

Boyd v US. 176 US 616 (1886);

32

Byars v US. 273 US 28 (1927);

32

Deutch v US. 367 US 456,471 (1961);

30

xxi

Ex parte Bain. 121 US 1, 13 (1887);

30

Ex parte Wilson. 114 US 417, 429 (1885);

30

Flaxer v US. 358 US 147,151 (1958);

30

Gouled v US. 255 US 298, 313 (1921);

32

Grau v US. 287 US 124 (1932);

32

Gregory v Chicago. 394 US 111, 112 (1969);

30

Machibroda v US. 368 US 487, 493 (1962);

32

Mallov v Hogan. 378 US 1, 7 (1964);

31

Marburv v Madison, 1 Cranch, 137,163,2 L. Ed 60 (1803);

30

Russell v US. 369 US 749, 755, 763-6, note 13 (1962);

5

SachervUS. 356 US 576, 577 (1958);

30

Shelton v US, 356 US 26, 26 (1958);

31-2

Sinclair v US. 279 US 263, 296-7 (1929);

30

Smith v US. 360 US 1, 9,10 (1959);

30

US v Tackson. 390 US 570 (1968);

32

Watkins v US. 354 US 178, 208 (1957);

30

Weeks v US. 323 US 383 (1914);

32

Brusbon v US (2008, Dist Col App) 957 A2d 931;

30

US v Achtner. 144 F.2d 49, 51 (2d Cir 1944);

5

Mullins v US. 382 F.2d 258 (4th Cir 1967);

31

Schautz v Beto. 416 F.2d 214, 216, #7, 9 (5th Cir 1969);

31

US v London. 550 F.2d 206,211 (5th Cir 1977);

4

XXH

Tohrtson v Renico. 314 F.Supp 2d 700, 709 (DC ED Mich 2004);

31

Adkins v US. (8th Cir 1999) 298 F.2d 842;

31

Cummings v US. 398 F.2d 377, 382 (8th Cir 1968);

31

US v DeMarco. 550 F.2d 1224,1226 (9th Cir 1977);

32

US v Groves. 571 F.2d 450, 453 (9th Cir 1978);

32

US v King. 587 F.2d 956, 963 (9th Cir 1978);

5

US v Morrison. 536 F.2d 286, 288, overview, outcome (9th Cir 1976);
US v Oaks. 527 F.2d 937, 940 (9th Cir 1975);

5
32

US v Seifuddin (1987, CA9 Or) 820 F.2d 1074;
Nelson v US. 406 F.2d 1136 (10th Cir 1969);

32
■ -V

Smith v Campbell (2008, CA11 Fla) 295 Fed App 314.

5
32

Government cannot commit a crime, a tort or lie against an American:
Agnello v US. 269 US 20, 32 (1925);

29

Bannon & Mulkev v US. 156 US 464, 468, 469 (1895);

37

Boyd v US. 176 US 616, 617, 630, 635 (1886);

32

Brady v Maryland. 373 US 83, 86, 87 (1963);

26

Brady v US. 397 US 742, 755 (1970);

28,35

Braverman v US. 317 US 49, 53 (1942);

35

Brown v Miss.. 297 US 276,281-7 (1936);

35

Byars v US. 273 US 28, 32 (1927);

31

Corlev v US. 556 US 303,309 (2009);

35

xxm

I

6

Davis v St of NC. 384 US 737, 752-3 (1966);

32, 36

Glasser v US. 315 US 60, 80 (1942);

31

Gouled v US. 255 US 298, 298, 304 (1921);
Graham v Conner. 490 US 386, 395, 398 (1989);

31, 36

Machibroda v US. 368 US 487, 487, 493,496 (1962);

32

Miranda v AZ. 384 US 436, 447 (1966);

35

Moore v Dempsey. 261 US 86, 89-90 (1923);

32

Napus v Illinois. 360 US 264,269, 271-2 (1959);
McNabb v US. 318 US 332, 340, 343, 344, 345, 347 (1943);

v

34
6,35

Pierce v US. 253 US 239, 244 (1920);

38

Pinkerton v US. 328 US 640, 640 (1946);

38

Re Oliver. 333 US 257,273 (1948);

36

Roe v Wade. 410 US 113,152 (1973);

31

Salinas v US. 522 US 52, 63-5 (1997);

35,39

US v Ferreira. 54 US 40,51 (1851);

35

US v Guest. 363 US 745, 745 (1966);

35

US v Lefkowitz. 285 US 452,464,466-7 (1932);

31,36

US v Mitchell. 322 US 65,67, 70, 88 (1944);

35

US v Nardello. 393 US 286, 286-289 (1969);

35

US v Nixon. 418 US 683, 701 (1974);

38

US v Rabinowich. 238 US 78, 86 (1915);

38

XXIV

Upshaw v US. 335 US 410, 413, summary (1948);
Webb v Texas. 409 U.S. 91, 95, 93 S.Ct. 351, 34 L.Ed.2d 330 (1972);
Weeks v US. 323 US 383, 383, 392 (1914);

5,35

36
31, 32

Bynum v US. 104 US App. D.C. 368, 262 F.2d 465, 466-7 (1958);

35

US v Barker (1976, App DC) 198 US App 174, 546 F.2d 940;

37

US v Ehrlichman (1976, App DC) 178 US App DC 144, 546 F.2d 910,
39 ARL Fed 604;

36

US v Ellis (1942, DC SC) 43 F Supp 321;

38

US v King (1973, App DC) 157 US App DC 179, 482 F.2d 768, 776;

34

US v Welch (1994, DC Me) 849 F Supp 5, 6-8;

5

Ferrara v US (2006, CA1 Mass) (1st Cir 2006) 456 F.3d 278, 26th pg;

36

US v Angiulo, 847 F.2d 956, slip op at 14-15 (1st Cir 1988);

37

US v Bvme. (1st Cir. 2006) 435 F.3d 16,18-20;

36

US v Cruz. 568 F.2d 781, 782-3 (1st Cir 1978);

37

US v DeVincent, 632 F.2d 155,159 (1st Cir 1980);

37

US v Hathaway. 534 F.2d 386, 393 (1st Cir 1976);

36

US v Ruiz. 905 F.2d 499,508, # 3,39,40,154-5 (1st Cir 1990);

36

US v Winter. 663 F.2d 1120,1136 (1st Cir 1981);

37

Wilkins v US. US Dist Ct Mass 13-1637 (1st Cir 2014);

36

Hunt v Weatherbee. 626 F.Supp 1097,1107 (D.Mass. 1986);

38

US v Torres Lopez (1988, CA1 Puerto Rico) 851 F.2d 520, 524;

38

US v Weilner (1993, CA1 Mass) 3 F.3d 17;

38

XXV

US V Weiner (1993, CA1 Mass) 3 F.3d 17;

38

US v Angelilli. 660 F.2d 23, 30-5, #1-2 (2nd Cir 1981);

36

US v Meiia. 545 F.3d 179, 206-7 (2d Cir 2008);

38

US v Margiotta. 688 F.2d 108,132-3, #1,2,4,5,8-10,84 (2nd Cir 1982);

36

US v Marrapese, 486 F.2d 918, 921 (2nd Cir 1973);

33

US v Matera. 489 F.3d 115,121 (2d Cir 2007);

38

US v Natale. 526 F.2d 1160, 1168-9 (2nd Cir 1975);

39

US v Sears. 544 F.2d 585, 587 (2nd Cir 1976);

39

US v Bufalino (1981, SD NY) 518 F Supp 1190;

38

US v Diaz (1999, CA2 Conn) 176 F.3d 52, 79, 52 Fed Rules Evid Serv 380;

33, 38

US v Manton (CCA2d) 107 F(2d) 834, 839;

33, 38

US v Castro. 411 Fed Appx 415 (2011 CA2 NY);

38

US v Middleton. (1965, CA2 NY) 344 F.2d 78, overview;
Wolfish v Levi (1978, CA2 NY) 573 F.2d 118,118;

36
36

US v Bacheler. 611 F.2d 443, 450, #1,2,35 (3rd Cir 1979);

36

US v Frumento. 563 F.2d 1083, 7-1092, #2 (3rd Cir 1977);

36

US v Mazzei. 521 F.2d 639, 643-4, #1,17,37 (3rd Cir 1975);

36

US v Twigg. 588 F.2d 373, 381 (3d Cir. 1978);

36, 39

Dickerson v US Steel Corp.. 439 F.Supp 55, 67 (ExD. Pa 1977);

38

Giuffre v Brissell (1994, CA3 NJ) 31 F.3d 1241;

32

Govt of Virgin Is v Solis (1964, CA3 Vi) 334 F.2d 517, 620-1;

35

US v DiSalvo (1994, CA3 Pa) 34 F.3d 1204, proc posture, 1211,1244;

39

XXVI

US v Feliziani (1979, ED Pa) 472 F.Supp 1037,1046;

38

US v Guadalupe (2005, CA3 PA) 402 F.3d 409;

37

US v Vega (2006, CA3) 184 Fed Appx 236;

36

US v Altomare. 625 F.2d 5, 7-8 (4th Cir 1980);

36

US v Baker. 617 F.2d 1060, #1, 9 (4th Cir 1980);

36

US v Long. 651 F.2d 239,241-2, #1,2,21 (4th Cir 1981);

36

Carpenter v US (1959, CA4 Va) 264 F.2d 565, 571, 572;

35, 36

Sutton v US (1959, CA4 Va) 267 F.2d 271;

36

Crowe v Lucas. 595 F.2d 985, 993 (5th Cir 1979);

38

Shelton v US. 246 F.2d 571, 572 n.2 (5th Cir 1957), rev'd 256 US 26 (1958);

36

US v Brown. 555 F.2d 407, 415 (5th Cir 1977);

38

US v Dozier. 672, F.2d 531, 543 n8, #1-14,16,32,114-5 (5th Cir 1982);

36

US v Hammond. 598 F 2d 1008,1012-3 (5th Cir 1979);

36

US v Nakaladski. 481 F.2d 289, 298 (5th Cir 1973);

39

US v Partida. 385 F.3d 546, 562, #2,83,89 (5th Cir 2004);

36

US v Toney. 598 F.2d 1349,1355 (5th Cir 1979);

38

US v Vaden. 912 F.2d780, 781 (5th Cir 1990);

37

US v Welch. 656 F.2d 1039,1039-47,1057,1059,1060,1062,1064-5,1067-70,
l,A,C,D,m A,1,C,1,D,1,2 (5th Cir 1981);

33

US v Wright. 797 F.2d 245, 249-50 (5th Cir 1986);

36

Cupit v Tones (1987, CA5 La) 835 F.2d 82;

36

Guerra v Collins. 916 F.Supp 620 (S.D. Tex 1995);

30

xxvn

US v Hinojosa (2012, CA5 Tex) 2012 US App LEXIS;

38

US v Morado (1972, CA Tex) 454 F.2d 167;

38

US v Chambers. 382 F.2d 910, 913-4 (6th Cir 1967);

38

US v Sivils. 960 F.2d 587, 596, #2,23,73 (6th Cir 1992);

36

US v Thompson. 685 F.2d 993, 998-1000, #2,39,45,53-6, 69 (6th Cir 1982);
US v Tines. 70 F.3d 891, 893 (6th Cir 1995);

36
37

US v Carson (2009, CA6 Mich) 560 F.3d 566, posture, 570-2, 590;

36

Branion v Gramlv. 855 F,2d 1256 (7th Cir 1988);

36

US v Braasch. 505 F.2d 139, posture, 141-2,148,151 (7th Cir 1974);

33

US v Blackwood. 768 F.2d 131,134-6, #2,3,7,60 (7th Cir 1985);

36

US v Castillo. 814 F.2d 351, 353 (7th Cir 1987);

33

US v Cogwell. 486 F.2d 823 (7th Cir 1973);

33

US v Connecticut. 769 F.2d 420 (7th Cir 1985);

36

US v Craig. 573 F.2d 455 (7th Cir 1977);

38

US v Devine. 787 F.2d 1086 (7th Cir 1986);

36

US v Gironda. 758 F.2d 1201,1217 (7th Cir 1985);

33

US v Griffin. 827 F.2d 1108,1116 (7th Cir 1987);

33

US v Grzvwacz. 603 F.2d 682, 686-7, 690, #1-10,12-20,22-25,29,36 (7th Cir 1979);

36

US v Hocking. 860 F.2d 769, 769, 777 (7th Cir 1988);

36

f

US v Kaczmarek. 490 F.2d 1031,1035 (7th Cir 1974);

33

US v Lee Stoller Enterprises. Inc. 652 F.2d 1313,1317-9,1-4,10,12 (7th Cir 1981);

36

US v LeFevour. 798 F.2d 977, 979 (7th Cir 1986);

36

xxvm

US v Masters. 924 F.2d 1362, (7th Cir 1991);

36

US v Mavo. 721 F.2d 1084, 1088 (7th Cir 1983);

33

US v Murphv. 768 F.2d 1518,1525-8 (7th Cir 1985);

35

US v Rindone. 631 F.2d 491, 491, 494-5 (7th Cir 1980);

36

US v Robinson. 470 F.2d 121,123 (7th Cir 1972);

33

US v Schmidt. 760 F.2d 828, posture, 830-2 (7th Cir 1985);

36

US v Shamah. 624 F.3d 449, overview, 451-2,455, 457-9 (7th Cir 2010);

36

US v Washington. 586 F.2d 1143,1153 (7th Cir 1987);

33

US v West. 670 F.2d 675, 685 (7th Cir 1982);

33

US v Whalev. 830 F.2d 1469,1476,1476,1477 (7th Cir 1987);

33

Duran v Elrod. (1979, CA7 Ill) 542 F.2d 998;

36

Somberger v City of Knoxville (2006, CA7 Ill) 434 F.3d 1006;
US v Black (2008, CA7 Ill) 530 F.3d 596;

31
36

US v lacquemain (2005, ED Mich) 368 F Supp 2d 800;

36

US v Olinger (1985, CA7 Ill) 759 F.2d 1293);

36

US v Roth (1988, CA7 Ill) 860 F.2d 1382,1383,1386;

36

Green v Baron (1989, CA8 Iowa) 879 F.2d 305;

36

US v Benefield (1979, CA8 Mo) 593 F.2d 815;

6

US v Brown. 584 F.2d 252, 262 (8th Cir 1978);

36

US v Burchinal. 657 F.2d 985, 992, #28 (8th Cir 1981);

38

US v Clark. 646 F.2d 1259,1261-7, #3,4,28 (8th Cir 1981);

36

US v lackson. 235 F.2d 925, 928 (8th Cir 1956);

37

XXIX

US V Rabbitt. 523 F.2d 1014,1019-21,1026 (8th Cir 1978);
Tohnson-El v George (1989, CA8 Mo) 878 F.2d 1043;

36
36

Missouri v Blair, 691 S.W. 2d 259 (Mo 1985) en banc,
cert dismissed 480 US 698 (1987);

36

Sampson v Schenck (2012, CA8 Neb) 700 F.3d 340,11-1918;
37

US v Keeble (1972, CA8 SD) 459 F.2d 757;
Villanueva v George (1981, CA8 Mo) 659 F.2d 851;

36

Warren v Lincoln (1987, CA8 Neb) 816 F.2d 1254;

36

Ginoza v US. 279 F.2d 616, outcome (9th Cir 1960);

35

Taglavore v US. 291 F.2d 262, 265 (9th Cir 1961);

36

US v Bagnariol. 665 F.2d 877, 893, #1, 18, 85 (9th Cir 1981);

36, 39

US v Bordallo. 857 F.2d 519, #1,3-6,8,27,45,50 (9th Cir 1988);

36

US v Dischner. 974 F.2d 1502,1511,1515 n 15, #2-5,8,21,26, 51-2,61
(9th Cir 1992);

36

US v Egan. 860 F. 2d 904, #2,18 (9th Cir 1988);

36

US v Gates. 616 F.2d 1103, #1-2, 34-5, 38 (9th Cir 1980);

36

US v Temigan. 582 F.2d 1211,1213-4 (9th Cir 1978);

35

US v Lane. 705 F.3d 1134,1399 (9th Cir 2013);

36

US v Morales. 344 F.2d 846, outcome, 851-3 (9th Cir 1965 );

35

US v Nunez. 483 F.2d 453, 460 (9th Cir 1973);

33

US v Polizzi. 801 F.2d 1543,1548 (9th Cir 1986);

39

Bvmes v US (1964, CA9 Cal) 327 F.2d 825, ?, 829, 833;

XXX

6

Cote v US (1966, CA9 Nev) 357 F.2d 789, 793;

35

Diaz v Gates (2005, CA9 Cal) 420 F.3d 897, #1.2,22, 26;

36

Marrowy US (1985, CA9 Cal) 772 F.2d 525;

36

US v Maves (1969, CA9 Cal) 417 F.2d 771, outcome;

35

US v McFall (20099, CA9 Cal) 2009 US App LEXIS, posture;

36

US v Ohlson. (1977, CA9 Cal) 552 F.2d 1347,1349, #2. 9;

36

US v Osunde (1986, ND Cal) 638 F. Supp 171, overview, 173,175-7, ?;

35

US v Graham. 581 F.2d 789, #1,8 (1978, CA Wash);

36

US v Reese (1993, CA9 Cal) 2 F.2d 870;

38

US v Skillmen: (1990, CA9 Cal) 922 F.2d 1370;

38

US v Sotoi-Lopez (1979, CA9 Or) 603 F.2d 789;

35

Fritts v US (10th Cir 1935) 80 F.2d 644;

38

Gooch v US (10 Cir 1936) 82 F.2d 534;

38

Iordan v US. 370 F.2d 126,128 (10th Cir 1966);

38

US v Whalen. 976 F.2d 1346,1348 (10th Cir 1992);

36

US v Zang. 703 F.2d 1186, 1191 (10th Cir 1982);

38

Berry v Muskogee (1990, CA10 Okla) 900 F.2d 1489;
US v Hampton. 786 F.2d 977, 979 (1986, CA10 Okla);
US v Whitnev (2000, CA Kan) 2290 F.3d 1296, 2000 Colo JCAR 5742;

36
38
38

US v Wright (1994, CA10 Okla) 43 F.3d 491, 499, #6;

36

US v Andrews. 765 F.2d 1491,1496 (11th Cir 1985);

37

US v Broadwell. 870 F.2d 594, 602 (11th Cir 1989);

37

XXXI

US V Coia. 719 F.2d 1120, 1124 (11th Cir 1983);

38

US v Heller. 830 F 2d 150, 152-3 (11th Cir 1987);

35

US v Holloway. 971 F.2d 675, 679 (11th Cir 1992);

37

US v Holzer. 816 F.2d 304, 305-7, 310 (11*^ Cir 1987);

36

US v Nguven. 255 F.3d 1335, 1341 (11* Cir 2001);

39

US v Ronda (2006, CA11 Fla) 455 F.3d 1273;

36

US v Wilson. 894 F.2d 1245, 1253 (11th Cir 1990);

37

US v Romero (2013, CA11 Fla) 2013 US App LEXIS 8683;

36, 38

US v Townsend (2011, CA11 Fla) 630 F.3d 1003;

36

US v Veal. (1998, CA11 Fla) 153 F.3d 1233, overview, 1233, 1248;

37

US v Scrushv. 237 F.R.D. 464, 468;

37

US v Conn. 420-1, 423, 425.

39

xxxn

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

DUE PROCESS

The First Amendment states, "Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of the
press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances."

The 5th Amendment states:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.

The Sixth Amendment states,
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.

Federal Rule of Criminal Procedure 3 states, "Rule 3. The Complaint The
complaint is a written statement of the essential facts constituting the offense

xxxm

charged. Except as provided in Rule 4.1. it must be made under oath before a
magistrate judge..."

Federal Rule of Criminal Procedure 4 states,
Rule 4 Arrest Warrant or Summons on a Complaint
(a) ISSUANCE. If the complaint or one or more affidavits filed with the complaint
establish probable cause to believe that an offense has been committed and that
the defendant committed it, the judge must issue an arrest warrant to an officer
authorized to execute it. At the request of an attorney for the government, the
judge must issue a summons, instead of a warrant, to a person authorized to
serve it....
(b) Form.
(1) Warrant. A warrant must:...
(D) be signed by a judge.
(c) Execution or Service, and Return.
(1) By Whom. Only a marshal or other authorized officer may execute a
warrant...

Federal Rule of Criminal Procedure 5 states, "Rule 5 Initial Appearance
(a) In General.
(1) Appearance Upon an Arrest.
(A) A person making an arrest within the United States must take the
defendant without unnecessary delay before a magistrate judge...
(b) ARREST Without A Warrant. If a defendant is arrested without a warrant, a
complaint meeting Rule 4(a)'s requirement of probable cause must be promptly
filed in the district where the offense was allegedly committed.
(c) Place of Initial Appearance; Transfer to Another District.
(1) Arrest in the District Where the Offense Was Allegedly Committed. If the
defendant is arrested in the district where the offense was allegedly committed:
(A) the initial appearance must be in that district;...

xxxxv

(3) Procedures in a District Other Than Where the Offense Was Allegedly
Committed. If the initial appearance occurs in a district other than where the
offense was allegedly committed, the following procedures apply:
(A) the magistrate judge must inform the defendant about the provisions
of Rule 20;
(B) if the defendant was arrested without a warrant, the district court where
the offense was allegedly committed must first issue a warrant before the
magistrate judge transfers the defendant to that district;
(C) the magistrate judge must conduct a preliminary hearing if required
by Rule 5.1;
(D) the magistrate judge must transfer the defendant to the district where the
offense was allegedly committed if:
(i) the government produces the warrant, a certified copy of the warrant, or a
reliable electronic form of either; and
(ii) the judge finds that the defendant is the same person named in the
indictment, information, or warrant; and
(E) when a defendant is transferred and discharged, the clerk must promptly
transmit the papers and any bail to the clerk in the district where the offense was
allegedly committed.
(d) Procedure in a Felony Case.
(1) Advice. If the defendant is charged with a felony, the judge must inform the
defendant of the following:
(A) the complaint against the defendant, and any affidavit filed with it;
(B) the defendant's right to retain counsel or to request that counsel be
appointed if the defendant cannot obtain counsel;
(C) the circumstances, if any, under which the defendant may secure pretrial
release;
(D) any right to a preliminary hearing; gnu
(E) the defendant’s right not to make a statement, and that any statement made
may be used against the defendant:...
2) Consulting with Counsel. The judge must allow the defendant reasonable
opportunity to consult with counsel.
(3) Detention or Release. The judge must detain or release the defendant as
provided by statute or these rules.
(4) Plea. A defendant may be asked to plead only under Rule 10.

xxxv

Fed. R. Crim. P. 16 - Discovery and inspection states,
(a) Government's Disclosure.
(1) Information Subject to Disclosure.
(E) Documents and Objects. Upon a defendant's request, the government must
permit the defendant to inspect and to copy or photograph books, papers,
documents, data, photographs, tangible objects, buildings or places, or copies or
portions of any of these items, if the item is within the government's possession,
custody, or control and:
(i) the item is material to preparing the defense;
(ii) the government intends to use the item in its case-in-chief at trial; or
(iii) the item was obtained from or belongs to the defendant."

RIGHT TO ASSISTANCE OF COUNSEL
The 6th Amendment says,
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial by an impartial jury of the state and district wherein the crime have
been committed,... and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor; and to have the assistance of counsel for his
defense."
18 U.S. Code § 3006A states,
Adequate representation of defendants

r

(a) Choice of Plan.—Each United States district court, with the approval of
the judicial council of the circuit, shall place in operation throughout the
district a plan for furnishing representation for any person financially unable
to obtain adequate representation in accordance with this section.
Representation under each plan shall include counsel and investigative,
expert, and other services necessary for adequate representation. Each plan
shall provide the following:

XXXVI

(1) Representation shall be provided for any financially eligible person
who—
(A) is charged with a felony or a Class A misdemeanor;...
(E) is charged with a violation of supervised release or faces modification,
reduction, or enlargement of a condition, or extension or revocation of a
term
of supervised release;
(H) is entitled to appointment of counsel under the sixth amendment to
the Constitution;
(I) faces loss of liberty in a case, and Federal law requires the appointment of
counsel; or
(J) is entitled to the appointment of counsel under section 4109 of this
title.
(2) Whenever the United States magistrate judge or the court determines
that the interests of justice so require, representation may be provided for
any financially eligible person who—
(A) is charged with a Class B or C misdemeanor, or an infraction for
which a sentence to confinement is authorized; or
(B) is seeking relief under section 2241,2254, or 2255 of title 28.
(3) Private attorneys shall be appointed in a substantial proportion of the
cases. Each plan may include, in addition to the provisions for private
attorneys, either of the following or both:
(A) Attorneys furnished by a bar association or a legal aid agency, *
(B) Attorneys furnished by a defender organization established in
accordance with the provisions of subsection (g)...
(b) Appointment of Counsel. —
Counsel furnishing representation under the plan shall be selected from a
panel of attorneys designated or approved by the court, or from a bar
association, legal aid agency, or defender organization furnishing
representation pursuant to the plan. In every case in which a person entitled to

xxxvii

representation under a plan approved under subsection (a) appears without
counsel, the United States magistrate judge or the court shall advise the person
that he has the right to be represented by counsel and that counsel will be
appointed to represent him if he is financially unable to obtain counsel.
Unless the person waives representation by counsel, the United States
magistrate judge or the court, if satisfied after appropriate inquiry that the
person is financially unable to obtain counsel, shall appoint counsel to
represent him. Such appointment may be made retroactive to include any
representation furnished pursuant to the plan prior to appointment. The
United States magistrate judge or the court shall appoint separate counsel for
persons having interests that cannot properly be represented by the same
counsel, or when other good cause is shown.
(c) Duration and Substitution of Appointments.—
A person for whom counsel is appointed shall be represented at every stage of
the proceedings from his initial appearance before the United States
magistrate judge or the court through appeal, including ancillary matters
appropriate to the proceedings. If at any time after the appointment of counsel
the United States magistrate judge or the court finds that the person is
financially able to obtain counsel or to make partial payment for the
representation, it may terminate the appointment of counsel or authorize
payment as provided in subsection (f), as the interests of justice may dictate. If
at any stage of the proceedings, including an appeal, the United States
magistrate judge or the court finds that the person is financially unable to pay
counsel whom he had retained, it may appoint counsel as provided in
subsection (b) and authorize payment as provided in subsection (d), as the
interests of justice may dictate. The United States magistrate judge or the court
may, in the interests of justice, substitute one appointed counsel for another at
any stage of the proceedings....
(D) Considerations.—The interests referred to in subparagraphs (B) and
(C) are—
(i) to protect any person's 5th amendment right against self-incrimination;
(ii) to protect the defendant's 6th amendment rights to effective assistance
of counsel;
Fed. R. Crim. P. 5 - Initial Appearance
(a) In General.

XXXVUl

(1) Appearance Upon an Arrest.
(A) A person making an arrest within the United States must take the
defendant without unnecessary delay before a magistrate judge, or before a
state or local judicial officer as Rule 5(c) provides, unless a statute provides
otherwise.
(d) Procedure in a Felony Case.
(1) Advice. If the defendant is charged with a felony, the judge must inform the
defendant of the following:
(A) the complaint against the defendant, and any affidavit filed with it;
(B) the defendant's right to retain counsel or to request that counsel be
appointed if the defendant cannot obtain counsel;
(D) any right to a preliminary hearing; and
(E) the defendant's right not to make a statement, and that any statement made
may be used against the defendant.
(2) Consulting with Counsel. The judge must allow the defendant reasonable
opportunity to consult with counsel.
Fed. Rule of Crim. Proc. 44 states, "Rule 44. Right to and Appointment of
Counsel
(a) Right to Appointed Counsel. A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at
every stage of the proceeding from initial appearance through appeal, unless
the defendant waives this right.
(b) APPOINTMENT Procedure. Federal law and local court rules govern the
procedure for implementing the right to counsel.
Fed. Rule of Crim. Proc. 11 states, "Rule 11. Pleas...
(b) Considering and Accepting a Guilty or Nolo Contendere Plea.
(1) Advising and Questioning the Defendant. Before the court accepts a plea
of guilty or nolo contendere, the defendant may be placed under oath, and the
court must address the defendant personally in open court. During this
address, the court must inform the defendant of, and determine that the
defendant understands, the following:...

xxxrx

(D) the right to be represented by counsel—and if necessary have the court
appoint counsel—at trial and at every other stage of the proceeding;...
(K) the court's authority to order restitution;...
(2) Ensuring That a Plea Is Voluntary. Before accepting a plea of guilty or
nolo contendere, the court must address the defendant personally in open
court and determine that the plea is voluntary and did not result from force,
threats, or promises (other than promises in a plea agreement).
(3) Determining the Factual Basis for a Plea. Before entering judgment on a
guilty plea, the court must determine that there is a factual basis for the plea.
(c) Plea Agreement Procedure. ..
(3) Judicial Consideration of a Plea Agreement.
(4) Accepting a Plea Agreement. If the court accepts the plea agreement, it
must inform the defendant that to the extent the plea agreement is of the type
specified in Rule 11(c)(1)(A) or (C), the agreed disposition will be included in
the judgment.
(5) Rejecting a Plea Agreement. If the court rejects a plea agreement
containing provisions of the type specified in Rule 11(c)(1)(A) or (C), the court
must do the following on the record and in open court (or, for good cause, in
camera):
(A) inform the parties that the court rejects the plea agreement;
(B) advise the defendant personally that the court is not required to follow
the plea agreement and give the defendant an opportunity to withdraw the
plea; and
(C) advise the defendant personally that if the plea is not withdrawn, the court
may dispose of the case less favorably toward the defendant than the plea
agreement contemplated.
(d) Withdrawing a Guilty or Nolo Contendere Plea. A defendant may
withdraw a plea of guilty or nolo contendere:...
(2) after the court accepts the plea, but before it imposes sentence if:
(A) the court rejects a plea agreement under 11(c)(5); or
(B) the defendant can show a fair and just reason for requesting the
withdrawal....
(f) Admissibility or Inadmissibility of a Plea, Plea Discussions, and
Related Statements. The admissibility or inadmissibility of a plea, a plea
discussion, and any related statement is governed by Federal Rule of Evidence
410.

xxxx

(g) RECORDING THE PROCEEDINGS. The proceedings during which the defendant
enters a plea must be recorded by a court reporter or by a suitable recording
device. If there is a guilty plea or a nolo contendere plea, the record must include
the inquiries and advice to the defendant required under Rule llfbl and (c)...

DOUBLE JEOPARDY

The Fifth Amendment states,
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual service in time of War or
public danger; nor shall any person be subject for the same offence to be twice
put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a
witness against himself, nor be deprived of life, liberty, or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.
42 USC §2000h-l states,
Double jeopardy; specific crimes and criminal contempts. No person should be
put twice in jeopardy under the laws of the United States for the same act or
omission. For this reason, an acquittal or conviction in a prosecution for a specific
crime under the laws of the United States shall bar a proceeding for criminal
contempt, which is based upon the same act or omission and which arises under
the provisions of this Act; and an acquittal or conviction in a proceeding for
criminal contempt, which arises under the provisions of this Act, shall bar a
prosecution for a specific crime under the laws of the United States based upon
the same act or omission."

THE RIGHT TO APPEAL and COLLATERAL ATTACK and WIN and TO HAVE AN
IMPARTIAL JUDGE
The Preamble to the US Constitution states,
We the People of the United States, in Order to form a more perfect Union,
establish Justice, insure domestic Tranquility, provide for the common defence,
promote the general Welfare, and secure the Blessings of Liberty to ourselves

xxxxi

and our Posterity, do ordain and establish this Constitution for the United States
of America.

Appellant claims the right to appeal under Article 1 Section 8 which states, "Section 8
...To constitute Tribunals inferior to the supreme Court;...

Article I Section 9 states, "... The Privilege of the Writ of Habeas Corpus shall not be
suspended..."

Article 3 Sections 1 with Section 2 states, Section 1
The judicial Power of the United States, shall be vested in one supreme Court,
and in such inferior Courts as the Congress may from time to time ordain and
establish. The Judges, both of the supreme and inferior Courts, shall hold their
Offices during good Behaviour, and shall, at stated Times, receive for their
Services, a Compensation, which shall not be diminished during their
Continuance in Office.
Section 2
The Judicial Power shall extend to all Cases, in Law and Equity, arising under
this Constitution, the Laws of the United States,...
The Trial of all Crimes, shall be by Jury; and such Trial shall be held in the State
where the said Crimes shall have been committed;..."

The Fifth Amendment states, No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a presentment or indictment of a
Grand Jury,... nor be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use, without just
compensation.

28 U.S. Code § 1292 states, Interlocutory decisions

xxxxn

(a) Except as provided in subsections (c) and (d) of this section, the courts of
appeals shall have jurisdiction of appeals from:
(1) Interlocutory orders of the district courts of the United States,...

Federal Rule of Appellate Procedure 3 states, "Rule 3. Appeal as of
Right—How Taken
(a) Filing the Notice of Appeal.
(1) An appeal permitted by law as of right from a district court to a court of
appeals may be taken..."

Fed. Rule of Crim. Proc. 44(a) (above) states, "A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of the
proceeding from initial appearance through appeal,"

The Fourth Amendment states, Fourth Amendment
The right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
28 USC sec 455(a)(b)(l)(5)(ii)(iii)(iv)(c)(e) states, "
28 U.S. Code § 455 - Disqualification of justice, judge, or magistrate judge
(a) Any justice, judge, or magistrate judge of the United States shall disqualify
himself in any proceeding in which his impartiality might reasonably be
questioned.
(b) He shall also disqualify himself in the following circumstances:
(1) Where he has a personal bias or prejudice concerning a party, or personal
knowledge of disputed evidentiary facts concerning the proceeding;...

xxxxrn

(4) He knows that he, individually... has a financial interest in the subject
matter in controversy...
(5) He...
(ii) Is acting as a lawyer in the proceeding;
(iii) Is known by the judge to have an interest that could be substantially
affected by the outcome of the proceeding;
(iv) Is to the judge's knowledge likely to be a material witness in the
proceeding.
(c) A judge should inform himself about his personal and fiduciary financial
interests,...

HEARING REQUIRED
Article 3 Section 2 (above) states, "The Trial of all Crimes... shall be by Jury.
The Fifth Amendment (above) states, "No person shall be held to answer for a ... crime,
nor be deprived of ... property, without due process of law."
18 U.S. Code § 3006A (d)(4)(B)(ii)(IV) (above) states, "adequate representation of
defendants for any person financially unable to obtain adequate representation for hearings is a
right.
Fed. R. Crim. P. 5 (a)(1)(A) (above) states, "the United States must take the defendant
without unnecessary delay before a magistrate judge..." (d)(1)(D) states, "Procedure in a Felony
Case. Advice. If the defendant is charged with a felony, the judge must inform the defendant of
the following: any right to a preliminary hearing..."
Fed Rule of Crim Proc 11 (b) (above) states, CONSIDERING AND ACCEPTING
A Guilty OR nolo Contendere Plea. (1) Advising and Questioning the Defendant.
Before the court accepts a plea of guilty or nolo contendere, the defendant may

xxxxxv

be placed under oath, and the court must address the defendant personally in
open court. During this address, the court must inform the defendant of, and
determine that the defendant understands, the following:

Fed. Rule of Crim. Proc. 44(a) (above) states, "A defendant who is unable to obtain
counsel is entitled to have counsel appointed to represent the defendant at every stage of the
proceeding from initial appearance through appeal."

BREACH OF CONTRACT
28 USC 3308 states, "Except as provided in this subchapter, the principles of law and
equity, including the law merchant and the law relating to principles and agent, estoppel;
laches, fraud, misrepresentation, duress, coercion, mistake, insolvency, or other validating or
invalidating clause shall apply to actions and proceedings under this subchapter."
The Uniform Commercial Code states, "§ 2-601. Buyer's Rights on Improper Delivery.
Subject to the provisions of this Article on breach in installment contracts
(Section 2-6121 and unless otherwise agreed under the sections on contractual
limitations of remedy (Sections 2-718 and 2-7191. if the goods or the tender of
delivery fail in any respect to conform to the contract, the buyer may
•

(a) reject the whole;..."

PROPER LEGAL STANDARD
Federal Rules of Criminal Procedure 1 states,
Rule 1. Scope; Definitions

xxxxv

(a) Scope.
(1) In General. These rules govern the procedure in all criminal proceedings
in the United States district courts, the United States courts of appeals, and the
Supreme Court of the United States....
(b) DEFINITIONS. The following definitions apply to these rules:...
(2) "Court" means a federal judge performing functions authorized by
law....

Federal Rule of Criminal Procedure 2 states, "Rule 2. Interpretation
These rules are to be interpreted to provide for the just determination of every criminal
proceeding, to secure simplicity in procedure and fairness in administration, and to eliminate
unjustifiable expense and delay."

15 U.S. Code § 1692h.Multiple debts says.
If any consumer owes multiple debts and makes any single payment to
any debt collector with respect to such debts, such debt collector may not apply
such payment to any debt which is disputed by the consumer and, where
applicable, shall apply such payment in accordance with the consumer's
directions.

CRUEL AND UNUSUAL PUNISHMENT PROHIBITED

The Eighth Amendment states, "Amendment VIII Excessive bail shall not be required,
nor excessive fines imposed, nor cruel and unusual punishments inflicted."

xxxxvi

SPEEDY TRIAL ACT

AMENDMENT VI states
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by
law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his
defence.

18 USC 3161 states:
(a) In any case involving a defendant charged with an offense, the appropriate
judicial officer, at the earliest practicable time, shall, after consultation with the
counsel for the defendant and the attorney for the Government, set the case for
trial on a day certain, or list it for trial on a weekly or other short-term trial
calendar at a place within the judicial district, so as to assure a speedy trial.
(b) Any information or indictment charging an individual with the commission
of an offense shall be filed within thirty days from the date on which such
individual was arrested or served with a summons in connection with such
charges.

18 USC 3162 states:
(b) In any case in which counsel for the defendant or the attorney for the Government (1)
knowingly allows the case to be set for trial without disclosing the fact that a necessary
witness would be unavailable for trial; ... or (4) otherwise willfully fails to proceed to
trial without justification consistent with section 3161 of this chapter, the court may
punish any such counsel or attorney, as follows:
(C) by imposing on any attorney for the Government a fine of not to exceed $250;
(D) by denying any such counsel or attorney for the Government the right to practice
before the court considering such case for a period of not to exceed ninety days; or
(E) by filing a report with an appropriate disciplinary committee.

xxxxvu

The authority to punish provided for by this subsection shall be in addition to any other
authority or power available to such court.

RIGHT TO THE PROTECTION OF THE CONSTITUTION AND THE LAWS

18 U.S. Code § 4 - Misprision of felony states:
(

Whoever, having knowledge of the actual commission of a felony cognizable by
a court of the United States, conceals and does not as soon as possible make
known the same to some judge or other person in civil or military authority under
the United States, shall be fined under this title or imprisoned not more than three
years, or both.

28 U.S. Code § 545 - Residence states:
(a) Each United States attorney shall reside in the district for which he is
appointed,... Each assistant United States attorney shall reside in the district for
which he or she is appointed or within 25 miles thereof.... Pursuant to an order
from the Attorney General or his designee, a United States attorney or an
assistant United States attorney may be assigned dual or additional
responsibilities that exempt such officer from the residency requirement in this
subsection for a specific period as established by the order and subject to
renewal.

Fed Rule of Criminal Procedure 7. The Indictment and the Information
(a) When Used.
(1) Felony. An offense (other than criminal contempt) must be prosecuted by an
indictment if it is punishable:
(A) by death; or
(B) by imprisonment for more than one year.
(2) Misdemeanor. An offense punishable by imprisonment for one year or less
may be prosecuted in accordance with Rule 58(b)(1).
(b) WAIVING Indictment. An offense punishable by imprisonment for more than
one year may be prosecuted by information if the defendant—in open court and

xxxxviii

after being advised of the nature of the charge and of the defendant's rights—
waives prosecution by indictment.
(c) N ature and Contents.
(1) In General. The indictment or information must be a plain, concise, and
definite written statement of the essential facts constituting the offense charged
and must be signed by an attorney for the government. It need not contain a
formal introduction or conclusion. A count may incorporate by reference an
allegation made in another count. A count may allege that the means by which
the defendant committed the offense are unknown or that the defendant
committed it by one or more specified means. For each count, the indictment or
information must give the official or customary citation of the statute, rule,
regulation, or other provision of law that the defendant is alleged to have
violated . For purposes of an indictment referred to in section 3282 of title 18,
United States Code, for which the identity of the defendant is unknown, it shall
be sufficient for the indictment to describe the defendant as an individual
whose name is unknown, but who has a particular DNA profile, as that term is
defined in section 3282.

NEITHER THE GOVERNMENT NOR ANY ONE IN THE FEDERAL GOVERNMENT HAS
AUTHORITY TO ASSIST OR COMMIT A CRIME, A TORT OR TO LIE OR CONSPIRE
AGAINST ANY AMERICAN PERSON

Article I Section 2 states, "... The House of Representatives ... shall have the sole Power
of Impeachment."

Article I Section 3 states, "... The Senate shall have the sole Power to try
all Impeachments... the Party convicted shall nevertheless be liable and subject
to Indictment, Trial, Judgment and Punishment, according to Law." That means
Congress can remove any member from the government for committing crimes
against Americans and they can still be prosecuted or sued.

Article I Section 5 states, "... Each House may punish its Members for disorderly
Behaviour, and,... expel a Member."

iL

Article II Section 4 states, "The President, Vice President and all civil Officers of the
United States, shall be removed from Office on Impeachment for, and Conviction of, Treason,
Bribery, or other high Crimes and Misdemeanors."
Article III Section 1 states,

. .The Judges, both of the supreme and inferior Courts, shall

hold their Offices during good Behaviour," That means they may not continue in their office if
they do not maintain good behavior.
The Third Amendment states, "No Soldier shall, in time of peace be quartered in any
.house, without the consent of the Owner, nor in time of war, but in a manner to be prescribed
by law."
The Fourth Amendment (above) prohibits some crimes, torts and lies.

The Fifth Amendment (above) prohibits some crimes, torts and lies.

The Sixth Amendment states, "In all criminal prosecutions, the accused
shall enjoy the right to a speedy and public trial, by an impartial jury of the State
and district wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the nature and
cause of the accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence." It says the ability of the government to
commit crimes, torts or lie against Americans under the guise of fighting crime.

The Eighth Amendment (above) prohibits some crimes.

The Ninth Amendment states, "The enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others retained by the people." This provides

L

protection from government crimes, torts, conspiracies or lies from the government that have
been thought of or listed.

The Tenth Amendment states, "10th Amendment
The powers not delegated to the United States by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively, or to the people." Nowhere does the US
Constitution give federal or State government authority to commit a crime, a tort, conspire or lie
against an American.
The 14th Amendment Section 1 and 3 state, "All persons born or
naturalized in the United States, and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.... No person shall be a Senator or Representative in
Congress, or elector of President and Vice-President, or hold any office, civil or
military, under the United States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an officer of the United States, or as
a member of any State legislature, or as an executive or judicial officer of any
State, to support the Constitution of the United States, shall have engaged in
insurrection or rebellion against the same, or given aid or comfort to the enemies
thereof. But Congress may by a vote of two-thirds of each House, remove such
disability."

18 U.S. Code § 4 - Misprision of felony states:
Whoever, having knowledge of the actual commission of a felony cognizable
by a court of the United States, conceals and does not as soon as possible make
known the same to some judge or other person in civil or military authority
under the United States, shall be fined under this title or imprisoned not more
than three years, or both.

18 U.S. Code § 211 - Acceptance or solicitation to obtain appointive public
office

Li

Whoever solicits or receives, either as a political contribution, or for personal
emolument, any money or thing of value, in consideration of the promise of
support or use of influence in obtaining for any person any appointive office or
place under the United States, shall be fined under this title or imprisoned not
more than one year, or both.
Whoever solicits or receives any thing of value in consideration of aiding a
person to obtain employment under the United States either by referring his name
to an executive department or agency of the United States or by requiring the
payment of a fee because such person has secured such employment shall be
fined under this title, or imprisoned not more than one year, or both. This section
shall not apply to such services rendered by an employment agency pursuant to
the written request of an executive department or agency of the United States.

18 U.S. Code § 241 - Conspiracy against rights
If two or more persons conspire to injure, oppress, threaten, or intimidate any
person in any State, Territory, Commonwealth, Possession, or District in the free
exercise or enjoyment of any right or privilege secured to him by the
Constitution or laws of the United States, or because of his having so exercised
the same;...
They shall be fined under this title or imprisoned not more than ten years, or
both; and if death results from the acts committed in violation of this section or if
such acts include kidnapping or an attempt to kidnap, aggravated sexual abuse
or an attempt to commit aggravated sexual abuse, or an attempt to kill, they shall
be fined under this title or imprisoned for any term of years or for life, or both, or
may be sentenced to death.

18 U.S. Code § 643 - Accounting generally for public money
Whoever, being an officer, employee or agent of the United States or of any
department or agency thereof, having received public money which he is not
authorized to retain as salary, pay, or emolument, fails to render his accounts for
the same as provided by law is guilty of embezzlement, and shall be fined under
this title or in a sum equal to the amount of the money embezzled, whichever is
greater, or imprisoned not more than ten years,
18 U.S. Code § 645 - Court officers generally
Whoever, being a United States marshal, clerk, receiver, referee, trustee, or
other officer of a United States court, or any deputy, assistant, or employee of

Lii

any such officer, retains or converts to his own use or to the use of another or
after demand by the party entitled thereto, unlawfully retains any money coming
into his hands by virtue of his official relation, position or employment, is guilty
of embezzlement and shall, where the offense is not otherwise punishable by
enactment of Congress, be fined under this title or not more than double
the value of the money so embezzled, whichever is greater, or imprisoned not
more than ten years, or both; but if the amount embezzled does not exceed
$1,000, he shall be fined under this title or imprisoned not more than one year, or
both.
It shall not be a defense that the accused person had any interest in such
moneys or fund.

18 U.S. Code § 646 - Court officers depositing registry moneys
Whoever, being a clerk or other officer of a court of the United States, fails to
deposit promptly any money belonging in the registry of the court, or paid into
court or received by the officers thereof, with the Treasurer or a designated
depositary of the United States, in the name and to the credit of such court, or
retains or converts to his own use or to the use of another any such money, is
guilty of embezzlement and shall be fined under this title or not more than the
amount embezzled, whichever is greater, or imprisoned not more than ten years,
or both; but if the amount embezzled does not exceed $1,000, he shall be fined
under this title or imprisoned not more than one year, or both.
This section shall not prevent the delivery of any such money upon security,
according to agreement of parties, under the direction of the court.

18 U.S. Code § 648 - Custodians, generally, misusing public funds
Whoever, being an officer or other person charged by any Act
of Congress with the safe-keeping of the public moneys, loans, uses, or converts
to his own use, or deposits in any bank, including any branch or agency of a
foreign bank (as such terms are defined in paragraphs (1) and (3) of section 1(b)
of the International Banking Act of 19781. or exchanges for other funds, except as
specially allowed by law, any portion of the public moneys intrusted to him for
safe-keeping, is guilty of embezzlement of the money so loaned, used, converted,
deposited, or exchanged, and shall be fined under this title or in a sum equal to
the amount of money so embezzled, whichever is greater, or imprisoned not
more than ten years, or both; but if the amount embezzled does not exceed
$1,000, he shall be fined under this title or imprisoned not more than one year, or
both.

Liii

18 USC 872 states, 18 U.S. Code § 872 states, "Extortion by officers or
employees of the United States
Whoever, being an officer, or employee of the United States or any department
or agency thereof, or representing himself to be or assuming to act as such, under
color or pretense of office or employment commits or attempts an act of
extortion, shall be fined under this title or imprisoned not more than three years,
or both; but if the amount so extorted or demanded does not exceed $1,000, he
shall be fined under this title or imprisoned not more than one year, or both."

18 USC 875 states, "18 U.S. Code § 875 - Interstate communications
(a) Whoever transmits in interstate or foreign commerce any communication
containing any demand or request for a ransom or reward for the release of any
kidnapped person, shall be fined under this title or imprisoned not more than
twenty years, or both.
(b) Whoever, with intent to extort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or foreign
commerce any communication containing any threat to kidnap any person or
any threat to injure the person of another, shall be fined under this title or
imprisoned not more than twenty years, or both.
(c) Whoever transmits in interstate or foreign commerce any communication
containing any threat to kidnap any person or any threat to injure the person of
another, shall be fined under this title or imprisoned not more than five years, or
both.
(d) Whoever, with intent to extort from any person, firm, association, or
corporation, any money or other thing of value, transmits in interstate or foreign
commerce any communication containing any threat to injure the property or
reputation of the addressee or of another or the reputation of a deceased person
or any threat to accuse the addressee or any other person of a crime, shall be
fined under this title or imprisoned not more than two years, or both.

18 U.S. Code § 1201 - Kidnapping

Liv

(a) Whoever unlawfully seizes, confines, inveigles, decoys, kidnaps, abducts, or
carries away and holds for ransom or reward or otherwise any person, except in
the case of a minor by the parent thereof, when—
(1) the person is willfully transported in interstate or foreign commerce,
regardless of whether the person was alive when transported across a State
boundary, or the offender travels in interstate or foreign commerce or uses
the mail or any means, facility, or instrumentality of interstate or foreign
commerce in committing or in furtherance of the commission of the offense;

18 U.S. Code § 1341 - Frauds and swindles
Whoever, having devised or intending to devise any scheme or artifice to
defraud, or for obtaining money or property by means of false or fraudulent
pretenses, representations, or promises, or to sell, dispose of, loan, exchange, alter,
give away, distribute, supply, or furnish or procure for unlawful use any counterfeit
or spurious coin, obligation, security, or other article, or anything represented to be
or intimated or held out to be such counterfeit or spurious article, for the purpose of
executing such scheme or artifice or attempting so to do, places in any post office or
authorized depository for mail matter, any matter or thing whatever to be sent or
delivered by the Postal Service, or deposits or causes to be deposited any matter or
thing whatever to be sent or delivered by any private or commercial interstate
carrier, or takes or receives therefrom, any such matter or thing, or knowingly
causes to be delivered by mail or such carrier according to the direction thereon, or
at the place at which it is directed to be delivered by the person to whom it is
addressed, any such matter or thing,...

18 U.S. Code § 1346.Definition of "scheme or artifice to defraud"
For the purposes of this chapter, the term "scheme or artifice to defraud"
includes a scheme or artifice to deprive another of the intangible right of honest
services.

18 U.S. Code § 1506 says "Theft or alteration of record or process; false bail

Lv

Whoever feloniously steals, takes away, alters, falsifies, or otherwise avoids any record, writ,
process, or other proceeding, in any court of the United States, whereby any judgment is
reversed, made void, or does not take effect;.

18 USA 1512 which states,
Tampering with a witness, victim, or an informant
(a)(1) Whoever kills or attempts to kill another person, with intent to—
(A) prevent the attendance or testimony of any person in on
official proceeding:
(B) prevent the production of a record, document, or other object, in an
official proceeding; or
(C) prevent the communication by any person to a law enforcement officer
or judge of the United States of information relating to the commission or
possible commission of a Federal offense...
shall be punished as provided in paragraph (3).
(2) Whoever uses physical force or the threat of physical force against any
person, or attempts to do so, with intent to—
(A) influence, delay, or prevent the testimony of any person in an official
proceeding;
(B) cause or induce any person to—
(i) withhold testimony, or withhold a record, document, or
other object, from an official proceeding;
(ii) alter, destroy, mutilate, or conceal an object with intent to
impair the integrity of availability of the object for use in an
official proceeding;...
(C) hinder, delay, or prevent the communication to a law
enforcement officer or judge of the United States of information
relating to the commission or possible commission of a Federal
offence or violation of conditions of probation, supervised release,
parole, or release pending judicial proceedings;
shall be punished as provided in paragraph (3).

Lvi

(b) Whoever knowingly uses intimidation, threatens, or corruptly persuades
another person, or attempts to do so, or engages in misleading conduct toward
another person, with intent to—
(1) influence, delay, or prevent the testimony of any person in an official
proceeding;
(2) cause or induce any person to—
(A) withhold testimony, or withhold a record, document, or other object,
from an official proceeding;
(3) hinder, delay, or prevent the communication to a law enforcement officer
or judge of the United States of informa tion relating to the commission or
possible commission of a Federal offense or a violation of conditions of
probation 111 supervised release,,[1] parole, or release pending judicial
proceedings;
shall be fined under this title or imprisoned not more than 20 years, or both.
(c)Whoever corruptly—
(1) alters, destroys, mutilates, or conceals a record, document, or other object,
or attempts to do so, with the intent to impair the object's integrity or
availability for use in an official proceeding; or
(2) otherwise obstructs, influences, or impedes any official proceeding, or
attempts to do so,
shall be fined under this title or imprisoned not more than 20 years, or both.
(g) In a prosecution for an offense under this section, no state of mind need be
proved with respect to the circumstance—
(1) that the official proceeding before a judge, court, magistrate judge, grand
jury, or government agency is before a judge or court of the United States, a
United States magistrate judge, a bankruptcy judge, a Federal grand jury, or a
Federal Government agency; or
(2) that the judge is a judge of the United States or that the law enforcement
officer is an officer or employee of the Federal Government or a person
authorized to act for or on behalf of the Federal Government or serving the
Federal Government as an adviser or consultant.
(k) Whoever conspires to commit any offense under this section shall be subject
to the same penalties as those prescribed for the offense the commission of which
was the object of the conspiracy.

Federal Rule of Criminal Procedure 49 says
Serving and Filing Papers

Lvii

(b) Filing.
(5) Acceptance by the Clerk. The clerk must not refuse to file a paper solely because it is
not in the form prescribed by these rules or by a local rule or practice.

Lviii

STATEMENT OF THE CASE

Multiple official representatives of USA made a written legally binding official
admission to the Ninth Circuit Court of Appeals:
1) USA and the courts repeatedly engaged in fraud for obtaining wealth by means of false or
fraudulent pretenses, representations, to deny Mr. Verkler credit for amounts collected in
violation of 15 USC 1692d, 1692e, 1692g, 1692h, 18 USC 1341.
2) the federal district court did not have subject matter or territorial jurisdiction in this case,
USA also made several stipulations to this (Exhibit P p75,77-9,81-4, 92,130-2,142-3,149,15861,163,170,176-8);
3) USA did not have standing, USA also made several stipulations to this Exhibit P
plO,80,85,86,125-136,149,158,161,170-1);
4) on Oct. '14 Mr. Verkler was the victim of armed robbery and kidnapping, [in violation of 18
USC 1959 and RCW 9A.40 and 9A.50] based on unfiled, counterfeit: complaint, counterfeit
warrants with forged signatures of a former judge (Exhibit: P p 10-12,17,25,36,50,89,108,139,1445,150-1,159,167-8,175,179, AF, AL, AR, AU). Coughenour joined this criminal conspiracy in
violation in 18 USC 3, 371, 1201,1342,1605,1512,1589,1959, 1961,1962, 2071, and 2113. No one
can dispute federal agents took all of Mr. Verkler's cash, gold and silver (Exhibits: E, P plO2,25,32,36,50, 89,108,139,144-5,150-1,159,167-8,175,179, AF, AL, AM, AR, AU). Many other assets
and files were taken that were not authorized by the so-called warrant. FRCrP 3 requires a
complaint to state the essential facts and be made under oath but the Oct 14, 2014 complaint

1

was not made under oath and all claims of facts were refuted. There was no establishment of
probable cause to issue a warrant at that or any later time. USA stipulated that Andrew
Frederick Harbison bom 1974 of 2114 E Marin St, Seattle WA 98122-4842, Latitude 47.6102,
Longitude -122.3043, opened the unemployment claim with IP address 63.225.190.120,
Provider Centurylink, Hostname 63.225.190.120. He was bom in 1974, his driver's license was
renewed 11/11. On 4/21/21 www.whitepages.com it says there is an Andrew F. Harbison in
Seattle age 46 with a criminal record. The entire operation was conducted illegally (Exhibits:
H, P p 6-61,64-5,67-71,73,75-98,100-121,123-136,138-179,180-3,190, Q pl4, V, AF, AH, AL, AM.
AR, AT, AU, AY);
5) that Mr. Verkler was not brought before a judge in violation of FRCP 5. Mr. Verkler proved
the entire first case based on that case was a false docket (Exhibits: P plO-2,14,20,31,37-9,52,1446,150-1,168,175,179 AF, AL, AR, AY). Attorney Link and judge Coughenour denied the
existence of the 10/14/14 complaint in their filings (Exhibit AY) (which means the docket never
got started and never existed);
6) In violation of 18 USC 1506: The court made false entries on 10/16/14-10/22/14 (Exhibits: P
pll-12,31,144-5,150, Q, AF, AL);
7) On 11/4/14 USA made a second set of accusations against Mr. Verkler and holding him in
custody starting the Speedy Trial Act, countdown (Exhibits: K, L, P pl5,37,146, X). In the
information USA stipulated at least 6 times Mr. Verkler was allegedly filing State weekly
unemployment claims to that date. It is impossible for Mr. Verkler to file those claims while
in custody 3 weeks non-stop. FRCP 5(c)(3)(A)(B)(C)(d)(l)(A)(B)(C)(D)(E)(3) were all violated;
8) USA refused to provide all required discovery and no judge would order it.

2

9) No defense lawyer would interview any witnesses.
10) Mr. Verkler filed Habeas Corpus on 1/16/15 after being illegally incarcerated over 90 days
(Exhibits: H, P pl5,18,150-1,159, Q p22). USA stipulated they deliberately and knowingly
violated the Speedy Trial Act (Exhibits: P pl5-16,37-8, X). [Mr. Verkler later learned Judge
Jones dismissed the matter with prejudice on 2/2/15 (Exhibits: P pl74, AH) the court stole the
record in violation of 18 USC 1506];
11) 2/3/15 USA made a Motion to Dismiss and multiple official representatives of USA also
made a written legally binding stipulation to the District court that before 1/8/15 USA made
baseless accusations that Mr. Verkler committed crimes and held Mr. Verkler in custody from
that date [11/4/14] (the 1/8/15 discovery conference did not yield any evidence against Mr.
Verkler and did not provide copies of everything taken from his home) (Exhibits: K plO-1,17, P
pl2,15-6,145,179) that starts the Speedy Trial Act 18 USC 3161, countdown on 11/4/14, US v
Marion. 320, 331:
12) the unsworn 2/4/15 complaint had no incriminating facts, USA stipulated at least 3 times
Mr. Verkler was allegedly filing State weekly unemployment claims to that date. It is
impossible for Mr. Verkler to file those claims while in custody 15 weeks non-stop, (Exhibits:
G, P pl2-3,17,21-2,101,121) but the court illegally allowed prosecution of Mr. Verkler to proceed
in violation of FRCrP 3 (Exhibit: G);
13) the judge did not establish that Mr. Verkler was charged with a felony violating FRCP 4
because there was no arrest warrant nor arrest in February, the court allowed USA to continue
to keep Mr. Verkler imprisoned even after Mr. Verkler won his case several times over

3

(Exhibits: H, K, P pl-8,12-13,15,16,18,21-2,57,59,88,93-4,103-5,107-21,123-36,138-141,1467,151,173-4,176, AB, AC, AD, AH);
14) The courts violated every part of FRCrP 5 by not having an initial appearance for the
second set of charges. Instead, his court falsified the docket for 2/4/15 and 2/5/15 in violation of
18 USC 1506. Attorney Leonard was dismissed, he stipulated that he lied to Mr. Verkler and
refused to defend Mr. Verkler and actively worked against Mr. Verkler. The court illegally
refuses to provide the required transcript so there is no evidence Rule 5 was obeyed. Failure to
provide a transcript is grounds for reversal of a conviction. [At Sea-Tac Detention Center Mr.
Verkler was told that if he paid $2,500 that he could get his case dismissed.]
15) the 2/10/15 detention order is false violating 18 USC 1506 (Exhibit P pl45, Q);
16) 2/12/15 is the day attorney Shaw claimed to file a Motion to Suppress the Arrest Warrant
and the Search and Seizure Warrant (Exhibit Q p4,10,24,30,34,45,56,57, 60,63-4). USA confirmed
in filings made on 4/22/15, 8/11/15, 8/25/15 and 2/19/16. Yet the court later lied to claim it was
not filed, the court must have deleted it). USA filed Motion to Dismiss, [Mr. Verkler learned
Judge Donohue dismissed the matter with prejudice the court stole those records in violation
of 18 USC 1506];
17) Even though Mr. Verkler won his case (Exhibit P p3-8,15-6,18,21-2,57,59,88,93-4,103-5,10721,123-136,138-141,144,146-7,151,173-4,176, BD p5,16-7,26-7), Mr. Verkler was not yet arraigned
so the conviction must be voided, Upshaw v US. 413, [Mr. Verkler later found that on 2/19/15
the court found Mr. Verkler guilty and pronounced sentence (Exhibit AR) without Mr. Verkler
being charged (Exhibit J Info); without any evidence against him (Exhibit P pll-13,1719,21,35,46,100-1,104,143,145,147,149,151,164); without an hearing; after he had the matter

4

dismissed with prejudice twice (Exhibits: H, AH)]; was found not guilty by adjudication on the
merits (Exhibit K) (Exhibit P p27/147/157/165); without a trial, [or a guilty plea], a nolo contender
plea; where it was impossible to convict him because he was a victim of indefinite detainment,
many due process violations and more. In the information USA stipulated at least 6 times Mr.
Verkler was allegedly filing State weekly unemployment claims to that date. It is impossible
for Mr. Verkler to file those claims while in custody 18 weeks non-stop proving his
innocence; (Exhibits: G p2,1 p2,3,14,16, J p2,3,14,16, P p21,22, BD p6,18,26,27, Supplemental
Reply Brief p3). Mr. Verkler was not indicted. The information cited no evidence against Mr.
Verkler and did not state the elements which is essential FRCrP 7(a)(c); Russell v US. 763-6, note
13; Berger v US, 82; US v Achtner. 51; US v London. 211, US v King. 963; Nelson v US: no count
stated a crime, US v Welch. 6-8, also "convert... gave no indication of the criminal intent
necessary", US v Morrison. 288, overview, outcome.
18) on 2/20/15 USA stipulated FRCP Rule 41 applies to this case. "The word "any" has a
comprehensive meaning of "all or every." Kalmbach, Inc, v. Ins. Co. of State of PA. One docket
reports case dismissed, but falsely reports several negative things (Exhibits: P pl45, AF, AL) on
2/20/15 Mr. Verkler was forced to plead guilty to save his little underage children from being
kidnapped and killed by USA, to avoid lifetime imprisonment and other threats and
attorney Shaw's refusal to defend Mr. Verkler (Exhibits: P pl9-20,28-29,34,37,52-55,67,8991,94,106-7,129,143,147,149-50,164-6,181, AR). Mr. Verkler might still be in prison had he not
plead guilty, Davis v St of NC, 752-3. Coughenour knew these things and joined in the
conspiracy on 3/10/15 if not sooner (Exhibit P p3-8,15-6,18,21-2,45,57,59,88,93-4,103-5,107121,123-36,138-141,141,146-7,151,176-4,176, BD p5,16-7,26-7); Mr. Verkler was told the he was

5

pleading to misdemeanors, his attorneys had several basis to make that claim, but the judge put
the judgments as felony convictions as in McNabb v US. 340, 345. The magistrate had no reason
to believe the crime was committed or that Mr. Verkler committed it, Byrnes v US. ?, 829, 833;
19) because Mr. Verkler's attorney refused to assist (Exhibits: P pl2,21,31-47,52,55-61,8895,100-1,109,115,142-3,145-6,149,151,154-5,160-1,165,172-8,180-3, Y, AX), on 4/22/15 Mr. Verkler
filed a motion to get relief from illegal prison conditions including an attempt by USA to
execute a death penalty (first degree murder) without a court order violating 18 USC 1512 [and
RCW 9A.28.020] (Exhibits: P pl43-4,151,159, AW). Coughenour chose to commit the felonies:
accessory after the fact, misprision of felony, and entered into the criminal conspiracy in
violation of 18 USC 3, 4, 371, US v Benefield, with Mr. Verkler's attorney and USA's BOP.
Coughenour illegally sealed Mr. Verkler's motion on 5/8/15 to conceal the truth and take a
major part of destroying evidence in violation of 18 USC 1506.
20) on 5/8/15 the docket finally records one of Mr. Verkler's requests for court records stating it
was sealed. Mr. Verkler did not authorize it to be sealed, Coughenour did not have authority to
seal it. The court refused to provide transcripts. Also, Mr. Verkler requested transcripts on
3/30/15, 4/14/15, 5/30/15, and 3/3/16. The following docket entries #26 & #27 were stolen in
violation of 1506.
21) on 8/4/15 Coughenour prepared a preliminary and final order of forfeiture which included
the most valuable computer, the iMac, which was not in the plea contract and would have gone
a long way to honoring the plea agreements to provide promised files. His order did not state
the amount of money seized from Mr. Verkler, only that $14,652.55 of the money shall be forfeit.

6

Shaw betrayed Mr. Verkler by not presenting any evidence, Laws, constitutional and
precedents he supplied her and not making most arguments he provided, such as Mr. Verkler's
inventory of currency of $153,892.55 (Exhibit E).
22) on 8/12/15 Mr. Verkler's so-called attorney Shaw learned the BOP thought Mr. Verkler was
sentenced to 2-years so she filed to get the judge to change the sentence to make it a 4-year
sentence. Mr. Verkler's attorneys were all perfidious, treasonous, against him (Exhibits: P
plO,25,34,41-7,55-61,89,94,109,115,120,142-5,146-7,151-5,167-8,171,178, AX, AY).
23) on 8/13/15 a docket reports motions filed. Coughenour lied and said Mr. Verkler had no
access to the court, even though he has access under Supreme Law and Coughenour refused to
dismiss ineffective counsel based on lies.
24) On 1/26/16 Link arranged his only call with his client. He never visited Mr. Verkler, nor got
discovery or transcripts and ignored what Mr. Verkler sent him
25) on 2/9/16 Coughenour issued a final order of forfeiture the cash, coins and other assets were
not inventoried as required by FRCrP 41(f)(1)(B) (Exhibit E). These facts are undisputed and the
opposing party bound themselves to assent and agree these facts are true. Coughenour based
his Order on laws that cannot apply;
26) on 2/19/16 Mr. Verkler dismissed appellate attorney Gregory Charles Link;
27) 3/21/16 Mr. Link retaliated by filing an invalid, illegal phony lying anders brief;
28) on 11/17/16 Coughenour lowered what Mr. Verkler received credit towards restitution
contrary to his 9/15/15 decision;

7

29) on 2/24/17 Mr. Verkler filed for relief from the BOP's attempted murder, assault, not to deny
him law library time, attorney phone, to release him on time, to return legal papers and make
no more seizures, and suppress the Information;
30) the court refused to respond Mr. Verkler filed a motion to proceed on 4/14/17;
31) on 7/6/17 Coughenour based on his own lies illegally rules against Mr. Verkler's motion to
recognize Mr. Verkler won his case by adjudication on the merits;
32) on 8/8/17 Mr. Verkler filed a motion for legal counsel for a 28 USC 2255;
33) On 11/07/17 Coughenour denied Mr. Verkler's motion for the public defender to provide
known copies of records of Mr. Verkler's file that were stolen by USA's BOP;
34) In 12/08/17 Mr. Verkler filed habeas corpus under 28 USC 2255;
35) USA did not send its response to Petitioner, by the deadline of 1/2/18 per 28 USC 2243.
Coughenour said it was due 4/16/18 but Mr. Verkler is not allowed to have a copy. The court
does not have a copy (Exhibit AF);
36) On 1/29/18 Coughenour illegally denied 14 legal grounds to vacate and set aside the
judgment against him based on nothing. Since Coughenour denied Mr. Verkler legal counsel
Coughenour had no right or authority to make any ruling against him. Coughenour even
denied the ground of cumulative error while stating he could not decide on 5 grounds until
USA responded; it was impossible to truthfully rule against cumulative error. Coughenour
exposed that he never had any intention of allowing relief to Mr. Verkler no matter what
response USA did or did not make;

8

37) On 3/1/18 Coughenour ruled against Mr. Verkler's FRCrP 41(g) motion to be able to receive
money that was illegally seized, but not inventoried (in violation of (FRCrP 41(f)(1)(C)), and
was not abandoned or forfeited based on his own lies.
38) on 3/3/18 Mr. Verkler filed a Supplement to his 28 USC 2255 habeas corpus, USA did not
respond, no judge ruled on it;
39) On 3/22/18 Coughenour denied a motion to re-file documents lost by the court;
40) On 4/16/18 Coughenour denied a motion to find public defenders in contempt of court for
failing to provide Mr. Verkler a complete copy of Mr. Verkler's case file;
41) before 4/30/18 Mr. Verkler filed for summary judgment for his 28 USC 2255 habeas corpus,
USA did not respond;
42) Mr. Verkler contacted the Federal Public Defender's. They refused to appoint an attorney
and refused a CJA attorney for Mr. Verkler's 2255 habeas corpus;
43) on 3/5/19 Mr. Verkler filed objections for his 28 USC 2255 habeas corpus, USA did not
respond, no judge ruled on it;
44) before 3/11/19 Mr. Verkler filed a second supplement to his 28 USC 2255 habeas corpus,
USA did not respond, no judge ruled on it;
45) An attorney filed a proforma motion to end Mr. Verkler's probation without letting Mr.
Verkler see it and without evidence or a basis and without asking for an hearing in the event the
judge did not want to grant it;
46) 4/7/20 USA's response to end probation is full of lies;

9

47) on 4/27/19 Mr. Verkler filed second objections for his 28 USC 2255 habeas corpus, USA did
not respond, no judge ruled on it;
48) on 3/24/20 Mr. Verkler filed a notice of default judgment for his 28 USC 2255 habeas
corpus, USA did not respond so they admit, assent and agree Mr. Verkler is right;
Beyond USA's official legally binding written admissions:
49) on 4/14/20 Coughenour lied to deny ending probation;
50) on 4/19/20 Mr. Verkler filed rebuttal and objections for an attempt to end probation, USA
did not respond so they admit, assent and agree Mr. Verkler is right;
51) on 4/25/20 Mr. Verkler filed a notice of appeal to both courts to end probation;
52) on 5/21/20 Mr. Verkler filed for effective legal counsel to end probation;
53) Coughenour denied the Notice of Default Judgment for the habeas corpus still not having a
response from USA;
54) on 6/13/20 Mr. Verkler filed a notice of appeal to the district and circuit courts;
55) on 7/17/20 attorney filed Opening Brief for 20-30097 without including things;
56) on 7/24/20 Mr. Verkler filed a supplement to the attorney's Opening Brief for 20-30097, USA
did not respond so USA admitted to everything;
57) On 8/17/20 USA stipulated that weekly State unemployment claims were filed in 2 States
which was impossible for him to do while Mr. Verkler was in custody;
58) On 8/24/2020 Coughenour refused to consider Mr. Verkler's motion.

10

59) On 8/25/20 attorney filed Reply Brief for 20-30097 refusing to include things;
60) Mr. Verkler dismissed that attorney for gross negligence and sabotage;
61) On 9/20/20 Mr. Verkler filed an Informal Opening Brief for 20-35559 for his 28 USC 2255
habeas corpus, USA did not respond so USA admitted to everything;
62) 9/22/20 Mr. Verkler filed an Informal Supplement Reply Brief for 20-30097;
63) the panel denied the appeal to end probation without any basis;
64) on 12/20/20 Mr. Verkler filed objections to judge Coughenour's refusal to rule on the rebuttal
and objections for an attempt to end probation, USA did not respond so USA admitted to
everything, no judge ruled on it;
65) on 1/06/21 Mr. Verkler filed a Petition for Rehearing to end probation for 20-30097, the filing
was stolen, USA did not respond so USA admitted to everything;
66) on 12/20/20 Mr. Verkler filed objections to judge Coughenour's refusal to rule on the rebuttal
and objections for an attempt to end probation, USA did not respond so USA admitted to
everything, no judge ruled on it;
67) on 1/12/21 Coughenour issued a summons for an impossible probation violation;
68) 1/29/21 initial hearing, attorney refused to contest anything. Sometime after the hearing
attorney stated it was already decided that the judge would rule against me no matter what the
evidence or Law said.

11

69) on 3/2/21 Mr. Verkler filed to dismiss attorney Thomas Coe for refusing to work on
Mr. Verkler’s behalf and plotting to find Mr. Verkler guilty in case 2:i5-cr-00041-JCC
and Mr. Verkler filed to get subpoenas for adverse witnesses.
70) on 3/19/21 Paula at the court house stated Coughenour refused to allow the attorney
dismal and subpoena motions to be docketed. On 3/24/21 Paula at the court said my
motion for discovery was received but not docketed.
71) On 5/15/21 Mr. Verkler found that on 1/29/21 Dkt 160 Judge Michelle L Peterson
ordered the government to disclose discovery. Mr. Verkler did not get any discovery and
cannot get a copy of that order.

12

• f

REASONS FOR GRANTING THE PETITION

United States Ninth Circuit court of appeals has entered a decision in conflict with the
decision of another United States court of appeals and the Supreme Court on the same
important matter; and has so far departed from the accepted and usual course of judicial
proceedings, and sanctioned such a departure by a lower court, as to call for an exercise of
this Court's supervisory power. United States Ninth Circuit court of appeals has decided an
important question of federal law that has not been, but should be, settled by this Court, and
has decided an important federal question in a way that conflicts with relevant decisions of this
Court.
The proceeding involves one or more questions of exceptional importance, the lower
courts violate: 1) due process; 2) the right to assistance of legal counsel, 3) the protection against
double jeopardy, 4) the right to an appeal and have an impartial judge; 5) the right to an
hearing; 6) the right of a victim to rescind a contract when there is breach of contract; 7) its
obligation to obey the Constitution and Law and not abuse discretion; 8) the protection against
the cruel and unusual punishment of infinite fines; 9) the right to a Speedy Trial; 10) the right to
claim protection of the Constitution and the laws; 11) the court's decision violates the truth that
the government or member of it has no right or authority under the Constitution or the Law to
commit: crimes, torts, conspire or lie against an American.
The right to due process has been trampled upon and needs a boost. "Due Process
Clause prohibits punishment of person prior to judgment of conviction..." Bell v Wolfish. 521,
535-7, 543, 545; lones v Horne; Wolfish v Levi. 118; Hubbard v Taylor; Cupit v lones: Malone v

13

* *

Colver; Matzken v Hen; Green v Baron: Berry v Muskogee. USA and the court punished Mr.
Verkler prior to judgment by holding him in prison without pre-trial release, after he won his
case and after the court was absolutely obligated to release him for being in custody 90 days
without the beginning of trial, and not giving credit for time served, and refusing to provide
minimal medical care. The courts were wrong to put false entries on the docket that he
stipulated to pre-trial detention and to refuse to rule on the issue, especially since USA admitted
the violations.
Mr. Verkler was not notified that the court would conspire to impose additional
penalties without due process of law in violation of FRCrP 11 (b)(5)(A)&(B). Mr. Verkler was
not given notice that the court would reject the plea agreement and did not inform Mr. Verkler
the court was not required to follow the plea agreement so Mr. Verkler has taken the
opportunity to withdraw the plea in violation of FRCrP 11 (b)(5)(A)&(B). The court and USA
have violated the Fifth Amendment by imposing punishments without charges, a trial, a guilty
plea or a nolo contendere plea, or evidence all without a court order and without due process of
law that he was not sentenced to endure: 1) kidnapping; 2) punishing Mr. Verkler twice with
an additional prison term of 9.3 months; 3) imposing infinite fines; 4) attempting a death
penalty; 5) additional convictions; 6) forcing abandonment of legal documents acquired and
prepared while in custody; 7) forcing Mr. Verkler out of a job and to give up other legal earned
income; 8) making felony threats against Mr. Verkler. Also Mr. Verkler did not know how he
would be denied court access or legal counsel. "Misrepresentation of counsel, the district court
and US" can "retract that plea" Chizen v Hunter, 561-3.

14

Mr. Verkler was denied access to the courts in violation of the 5th Amendment. The
courts violated Re Oliver. 273 by hiding court decisions and filings from the Defendant and the
public. The courts have refused to file motions on the docket that they received by stealing
those court records. The courts openly refused to consider motions and briefs filed by the
defense and declare the defense has no right to access the courts. It has been established by the
court's writings that they did not usually read what was presented to them. It is impossible for
the court to rule on the record when the vast majority of transcripts do not even exist! And the
2 transcripts that exist have been proven to not be word for word, US v Taylor. In
Coughenour's denial he falsely stated the date of sentencing, the court found Mr. Verkler guilty
and pronounced sentenced him 2/19/15 and left out that Mr. Verkler's attorney stated that the
court, probation and USA favored ending probation, but opposed it after the motion was filed.
Coughenour stipulated money was defrauded from State unemployment claims which proves
the federal court did not have jurisdiction and USA did not have standing. He lied that
Defendant refuses to pay restitution even though Defendant proved the court and USA
collected much more than the amount of the restitution; and claims Defendant refuses to
explore job opportunities although Defendant proved he got a job. Coughenour claims
remaining on supervision will ensure Mr. Verkler will receive mental health treatment although
USA claims the treatment is ineffective. Coughenour refused to rule on the Objections to
Coughenour's Refusal to Rule on Rebuttal and Objections, Request for Discovery and More
Proof of Ineffective Counsel filed 12/22/20. The Rebuttal and Objections to Illegal Ruling and
Probation Memorandum and USA's Response filed and Fourth Request for an Impartial Judge
filed 4/19/20. Everything the circuit court stated was a lie, except they did refuse to appoint

15

• *

counsel for Mr. Verkler. In issuing a mandate the court lied that Mr. Verkler did not file a
petition for rehearing, so they stole the court record.
USA is must provide Mr. Verkler files taken from him. The denial of discovery entitles
the defendant to have the conviction and sentence set aside and vacated, Cf. US v Bagiev. 68283; Ferrara v US. 286, 289, 30th, 34th pg; Gouled v US. 313; Poe v US: Henderson v US; US v
Strickland. 277,
The right to assistance of legal counsel has been perverted into imposition of fraud to
leave a defendant no choice but to be found guilty. Mr. Verkler was aften not allowing counsel
violating Glasser v US. 76. The circuit courts recognize the right of a defendant in a criminal
case to have legal counsel in such a case, US v Mala. US v Duarte-Higareda. Coughenour
denied legal counsel for several filings including the habeas corpus, objections, summary
judgment and default judgment.
The court's decision not to appoint an attorney to an indigent defendant in a criminal
case violates the US Constitution, Supreme Law, Federal Rules of Criminal Procedure and
precedents. Without counsel the Defendant is not allowed a chance. The court may not
proceed against a defendant without counsel. "Judges have a duty to ensure that the right to
counsel as a jurisdictional prerequisite to depriving a person of his or her liberty is fully
honored." Frazer v US; lohnson v Zerbst. The Courts ruled, "The deprivation of the right to
counsel... can never be treated as harmless error." Frazer v US: US v Iasiello; US v Leopard;
\
Roney v US; Shepherd v US; Green v US: US v Maxwell. Under Powell v AL and US v Wade.
226 Mr. Verkler claims the right to counsel at every step including challenging USA's and the

16

court's imposition of punishment not authorized under the sentence on record such as the
extended prison time and extended probation.
Mr. Verkler has the right to effective legal counsel, Glasser v US. 69-70 but never really
had legal counsel, because appointed attorneys worked against him. In Mr. Verkler's case
counsel said the judge refused to allow her to file on behalf of her client. Courts kept ruling, "...
Several courts have held or indicated that coercion by the accused's counsel can render a plea
involuntary." "A court's unreasonable or erroneous refusal to substitute counsel is
presumptively prejudicial and requires reversal... US v Velazquez. 1034; US v Nguyen. 1005;
see also US v Gonzalez-Lopez. 150 ("...unquestionably qualifies as 'structural error.'")." St of
WA v Delila Reid. There is no basis to deny counsel.
)

The imposition of multiple punishments beyond the sentence violates the Double
Jeopardy clause. Prosecuting a person after being established not guilty by adjudication on the
i

/l /

merits and after the matters were dismissed with prejudice is unconstitutional under the
Double Jeopardy clause; even when "the conviction was entered pursuant to a counseled plea
of guilty" Menna v NY. sum, 62; Blackledge v Perry, 24, 30; Meyers v US. 380; Mansolilli vUS.

I
vl

43..
On 2/12/15 USA stipulated in writing in an official court document under oath that they
knowingly and deliberately violated the Speedy Trial Act, and related Laws, USA stipulated
first accusations made 10/14/14 and subject to continued detention and stipulated that on 11/4/14
made the rest of the accusations (Exhibit K p2, P pl5,104, X), after violating the Act (Exhibit P
pl08-109,120,124), and then 2/19/15 the court found Mr. Verkler guilty and sentenced him and

17

later accepting an involuntary and unknowingly guilty plea. In claiming double jeopardy and
Speedy Trial violations adequate remedy is available under 28 USC 2255, Hart v Harris. The
courts refused to address these.
The US Constitution indicates there is a right to appeal and make collateral attack and
win, but the courts have perverted it into a guarantee for the defendant to be convicted. By
requiring due process and authorizing Congress to establish courts inferior to the Supreme
Court, but the courts have perverted it into a guarantee for the defendant to be convicted. The
5th Amendment7s requirement of due process means that if the original court violates due
process then a defendant must have the right to appeal. Federal Rules of Criminal Procedure
grants appeal as a right. No judge may deny a defendant the right to habeas corpus.
The courts keep ruling that without a proper arraignment even when represented by
counsel the conviction must be vacated, Cook v US. An arraignment did not take place until
after the court found Mr. Verkler guilty and pronounced sentence. The courts were wrong not
to address the issue. Mr. Verkler is entitled to an hearing on the 2255 because of missing
transcripts, US v Tavlor.
No judge signed the so-called mandate. There is no certified copy of the judgment and
is no opinion. If Appeal court does not specifically address an issue can the defendant can still
include it in habeas, Tohnson v Renico. 706, see Woodward v Williams. 1140. The appellate
court did not state a basis to rule against any grounds put forth by Mr. Verkler on appeal so
Coughenour was wrong to reject grounds in Mr. Verkler's habeas corpus based on the appellate
court's unconstitutional, illegal, baseless, meritless, lying dismissal of the cases. There is no

18

statement about costs. The mandate was filed without a ruling on the En Banc appeal. The
order is not legal. The Ninth Circuit denied that Mr. Verkler has a right to appeal and stated
they will not entertain filings in this case. Mr. Verkler claims appeal as of right per FRAP Rule
4(b)(l)(A)(i).
"Petitioner is entitled to relief under 28 USC 2255 on showing simple deprivation of his
right to appeal, without showing some likelihood of success on appeal;..." Rodriquez v US;
Doyle v US. Since the trial judge failed to protect the defendant's rights adequately, the
defendant has recourse to appellate review.
"It was permissible not to challenge sufficiency of indictment until appeal since
indictment omitted essential element of offense and thereby became so defective for which
defendant was convicted" US v Camp: Hambing v US. 117.
The court over looked that Mr. Verkler filed his habeas corpus under 28 USC 2255 so
there is no requirement for Mr. Verkler to get a certificate of appealability under 2255(d), but it
does grant the right to appeal. 28 USC 2255 is more current than 28 USC 2253 so 2255
supersedes 2253. Under the Rules Governing Section 2255 Proceeding for the US District Court
11.(a) the court is to direct parties to submit arguments if the court should issue a certificate of
appealability per 28 USC 2253(c)(2) because of a denial of a constitutional right. USA never
submitted anything against it so there is no controversy to invoke court authority for any judge
to rule against Mr. Verkler per US Constitution Article III Section 2. The court cannot require a
certificate of appealability. The court has no right or authority to demand or deny a certificate
of appealability for an habeas corpus under 28 USC 2255. The courts were wrong to deny Mr.
Verkler an appeal.

19

"Lack of jurisdiction of court rendering judgment was ground for interference by habeas
corpus." Craig v US: Williams v US: Thor v US: Covey v US. "... a defendant does not waive a
jurisdictional challenge by pleading guilty" US v Spinner. 516. "Challenges to district court's
subject matter jurisdiction may be raised at any time..." US v Burch. Mr. Verkler conclusively
proved lack of court jurisdiction. USA even stipulated and admitted State jurisdiction. The
district court never adequately addressed it and the circuit court ignored it.
The court over looked the fact that USA did not respond to Mr. Verkler's habeas corpus.
Mr. Verkler made 14 written requests for a copy of their 2255 response but USA did not
respond. Mr. Verkler made 7 written requests to the district court without a response. 28 USC
2250 requires the court to provide a copy of USA's response so failure to provide a copy means
the court breaks the law or it did not have a copy of USA's response. The court clerk finally
stipulated in writing that many of the documents, including USA's response to the 2255 do not
exist (Exhibit AF). By prosecuting Mr. Verkler after judges dismissed the matter with prejudice,
Mr. Verkler has the right to appeal, Abney v US.
The circuit court over looked that the district court had no basis to rule against any
ground Mr. Verkler presented and the court's decisions had no merit. The court never ruled on
several grounds presented in Mr. Verkler's habeas corpus: 4) the circuit did not allow Mr.
Verkler to have legal counsel on appeal; 17) the appellate court did not conduct an examination
of the case; 19) cumulative error; 20) Mr. Verkler was not indicted nor charged; 21) USA proved
that Mr. Verkler's signature was forged on the plea agreement; 22) the court found Mr. Verkler
guilty and sentenced him without a trial, without a guilty or a nolo contender plea, without

20

charges (Exhibits G, J), without an hearing, without an arraignment, without any evidence
(Exhibit J), after USA stipulated in writing to the court that they knowingly and deliberately
violated the Speedy Trial Act (Exhibit X) (p2 #5b should say there are NO transcripts), after 2
judges on the case under 2 different case numbers dismissed the matter with prejudice based on
2 habeas corpus (Exhibits H, AH), after Mr. Verkler was established not guilty by adjudication
on the merits (Exhibit K) FRCP 41 says it applies to "any federal- or state-court action" and USA
stipulated that FRCP 41 applies to this case, after USA violated the Speedy Trial Act.
Mr. Verkler is entitled to an impartial judge according to 28 USC sec 455; Goldberg v
Kelly; McNabb v US, 347; In re Murchison; Glasser v US. 72; Hallidav v US: United Retail and
Wholesale Employees Teamsters Union Local No. 115 Pension Plan v Yahn and McDonnell, Inc,
138. Instead, judges have become more dedicated to prosecuting a defendant than the
prosecutors. What processes are due? The Goldberg Court answered this question by holding
that the state must provide a hearing before an impartial judicial officer, the right to an
attorney's help, the right to present evidence and argument orally, the chance to examine all
materials that would be relied on or to confront and cross-examine adverse witnesses, or a
decision limited to the record thus made and explained in an opinion. The Court's basis for this
elaborate holding seems to have some roots in the incorporation doctrine. A defendant has...
"the right to an unbiased decisionmaker," see Board of Educ. v. Rice; H. WADE,
ADMINISTRATIVE LAW 171-218 (3d ed. 1971), even tracing its origin back to Genesis, Rex v.
University of Cambridge; Stewart v Tozwiak.
The US Constitution states it is to establish justice and liberty for a more perfect union
and only allows judges to remain in office during good behavior indicating they must obey the

21

US Constitution and the Law and be fair just and impartial, not lie nor commit a crime against
people. That even purportedly fair adjudicators "are disqualified by their interest in the
controversy to be decided is, of course, the general rule." Tumey v. Ohio, 273 U. S. 510, 522
(1927). Hamdi v Rumsfeld, 542 US 547, III D (2004). Judges can only issue warrants upon
probable cause supported by evidence, they are to be impartial. "When the opposing party
puts forth no facts, no law and no argument to support their positions it is illegal for the court to
rule on their behalf." Old Colony Trust Co. v Commissioner of Int Rev.
Furthermore FRCrPl(b)(2) states, "'Court' means a federal judge performing functions
authorized by law." So, a judge must act according to law and according to the evidence to be
impartial. It also means when a judge acts contrary to law it is not "Court". It means his
decisions and orders are null and void.
The judge's actions as a prosecutor, commits thefts, other crimes, violations of the
Constitution and Supreme Law prove he is not impartial and must not pre-determine to find
Mr. Verkler guilty, US v Cross; United Retail and Wholesale Employees Teamsters Union Local
No. 115 Pension Plan v Yahn and McDonnell. Inc, US v Cross. ? p 145,147-8; Great Western
Mining and Material Co v Fox Rothschild LLP: Nesses v Shepard, 1005; Marshall v Terrico. Inc..
242. Mr. Verkler's case was also predetermined.
The US Constitution and several Laws establish a defendant's right to an hearing. It is
often violated in favor of false entries in the docket or prearranged decisions without any input
or consent from the defendant as part of a conspiracy arranged behind his back. The US
Constitution and Law establish a right to due process and the right to appear before a judge

22

which means a right to an hearing from initial appearance through appeal and specifies a right
to an hearing. In an ordinary case a citizen has a right to a hearing to contest the forfeiture of
his property, a right secured by the Due Process Clause.
"Very notion of hearing, under due process..., however informal, connotes that decision
maker will listen to arguments of both sides before basing decision on evidence and legal rules
adduced at hearing." Billington v Underwood: Goldberg v Kelly. 267-8, 271; In re Murchison:
Dunn v US, 107.
The most recent decisions of the Supreme Court show a resumption of the trend toward
greater and greater insistence on hearings. North Ga. Finishing. Inc, v Di-Chem, Inc.. 723; In
Goss v Lopez the Supreme Court pushed the requirement of "some kind of hearing". "...court
must take defendant's allegations as true..." Mack v US. "[A] hearing in its very essence
demands that he who is entitled to it shall have the right to support his allegations by
argument, however brief, and, if need be, by proof, however informal.

Londoner v Denver.

386; Toint Anti-Fascist Refugee Committee v McGrath. 171-2. "The Court has consistently held
that some kind of hearing is required at some time before a person is finally deprived of his
property interests." Wolff v McDonnell. 557-8. "...contention that [defendant's] allegations are
improbable and unbelievable cannot serve to deny him an opportunity to support them by
evidence" Walker v Tohnston, 287; Machibroda v US. 495. "...the denial of that right is a
controversy." Willner v Committee on Character. 102. The essence of due process is the
requirement that "a person in jeopardy of serious loss [be given] notice of the case against him
and opportunity to meet it." Toint Anti-Fascist Comm, v McGrath. p349 ? (1950). It is likewise

23

fundamental that notice be given and that it be timely and clearly inform the individual of the
proposed action and the grounds for it. Boddie v Connecticut. 378; Stewart v Tozwiak.1064: Cf.;
Groppi v Leslie.
Breach of contract is a long-standing problem with the US government, it is past time
for the government to learn to have some honor. Defendant proved he was to receive credit
towards restitution for amounts collected, USA version of PLEA CONTRACT # 7, page 4 and
USA collected substantial sums USA version of PLEA CONTRACT # 8, page 5-8 and Exhibits
S, E, but USA gave no credit for anything it collected (Exhibit U). That is a clear breach of their
contract. "... where the government has breached or elected to void a plea agreement the
defendant... may seek... withdrawal of the guilty plea..." US v Gonzalez; Santobello v NY; US
v Puckett; US v Saling; US v Pollard: Dunn v Collaran. 262; Kingsley v US: Cosby v Muncy: also
US v Ammirato, 554 - 555; Bryan v US. 776, 778. The circuit would not consider this, the district
judge lied.
It is an abuse of discretion to apply the wrong legal standard, US v Ruiz. 1033. The US
courts commit a lot of abuse, it is time for a change for the better. The decision to deny Mr.
Verkler's right to appeal the denial of habeas corpus was illegal. FRCP 41 must be interpreted
according to the rule of lenity.
"A district court abuses its discretion when it misapplies the law in reaching its decision
or bases its decision on findings of fact that are clearly erroneous." Arce v Garcia. 1260. Here
the judge makes up laws.
According to FRCrP 1(a)(1) the rules govern all criminal proceedings in all US courts.
To apply a different standard in order to commit a crime against a defendant is not allowed.

24

The higher court needs to overturn the illegal lower court decisions. "The burden always
remains with the government" US v Dozier. #100.
The courts overlooked that the district court has not only abused discretion, it has
violated discretion in nearly every decision and it has violated the US Constitution and
Supreme Law and rebelled against Supreme Court precedents and Ninth Circuit and other
Circuit Court precedents in nearly every decision. Coughenour frequently relies on non­
existent cases, pages or laws or blatantly lies about them, even saying the opposite. The Ninth
Circuit has the same problem. Coughenour did not consider the relevant record or what Mr.
Verkler presented, Objections to Probation Ruling p 32. Coughenour knows much of the record
is wrong and even falsified it to the detriment of Mr. Verkler, Objections to Probation Ruling p
4, 33-4, Supplemental Opening Brief p 4 because he is directly involved is stealing court records.
Coughenour had no authority to make a ruling against Mr. Verkler because it has been
established beyond any reasonable doubt: 1) that Coughenour is not impartial 28 USC 455,
Goldberg v Kelly: Hallidav v US. 380 F. 2d 270 (1st Cir 1967); 2) the federal courts never had
jurisdiction to prosecute a case against Mr. Verkler; 3) USA never had standing to bring a case
against Mr. Verkler; 4) Mr. Verkler was not allowed effective counsel in district court and no
counsel for several filings and his habeas corpus; 5) Mr. Verkler was not allowed counsel for
appeals 15-30244,16-30001,17-30237,18-30073, 20-30161, 20-35559 there is a jurisdictional bar
that forbids the court to rule against Mr. Verkler per Tohnson v Zerbst, the court still has not
done its duty to rule in Mr. Verkler's favor for all appeals; 6) Mr. Verkler's right to a defense
was violated; 7) courts violate due process and abuse discretion; 8) Mr. Verkler's actual
innocence; 9) the guilty plea was not voluntary and not knowingly made; 10) illegal

25

imprisonment and kidnapping; 11) fraud in the factum; 12) breach of contract by USA; 13)
Speedy Trial Act violations; 14) prosecutorial misconduct; 15) the court refused to rule on
motions; 16) failure of the court to say it was giving credit for time served; 17) there was no
appeal waiver and if there was one Mr. Verkler could still appeal on the grounds he appealed;
18) double jeopardy was violated; 19) the appellate court did not: conduct an examination of the
case, the amended notice of appeal, read the sentence, read attorney Link's motion to withdraw,
Mr. Verkler's notice to dismiss Link past the caption, read any transcripts, Mr. Verkler's filings,
nor Mr. Verkler's briefs; 20) Mr. Verkler was not charged with the crimes the court found him
guilty and sentenced him to; 21) Mr. Verkler did not sign a plea agreement so the courts cannot
use it against him, Marino v Ragan: 22) The district court reported Mr. Verkler was guilty
without a trial, a guilty plea nor a nolo contendere plea. The circuit court did not consider the
>7cf
issues. USA did file an answering brief for: appeals 15-30244,16-30001,17-30237,18-30073, 2030161, 20-35559, so the court was obligated to rule in Mr. Verkler's favor.
The court and USA have violated the Article I Section 9, Article III Section 2, Fourth,
Fifth, Sixth, Eighth, Tenth, Thirteenth Amendments by imposing illegal punishments without
charges, a trial, a guilty plea or a nolo contendere plea, all without a court order and without
due process of law that he was not sentenced to endure: 1) punishing Mr. Verkler twice with an
additional prison term of 9.3 months; 2) attempting to impose a death penalty; 3) imposing
infinite fines; 4) putting additional counts on Mr. Verkler's record; 5) by forcing abandonment
of legal papers and evidence obtained while in prison; 6) denying discovery for continued legal
proceedings; 7) denying court access; 8) denying legal counsel; 9) money stolen from the wages
of slave labor; 10) forcing him out of a job; 11) forcing him to give up other legal earned income;

26

12) not returning property that the court did not include in forfeiture or abandonment; or felony
threats.

. .the court found that the government's nondisclosure constituted misconduct that

deprived the petitioner of the ability to enter a knowing and voluntary plea and,therefore,
transgressed the rule of Brady v US. See id. at 432-33," Ferrara v US, 17th pg.
USA seized funds that the sentencing court did not order, a clear double jeopardy
violation and not allowed under the Preamble. The US Constitution also states property cannot
be taken without due process of law. To decide to take more property without notice and
without regard to any evidence and without allowing the Defendant to present his case and
without a trial, an hearing or court order and when money is taken, they do it off the record and
keep the money rather than turning it in means he committed theft and embezzlement under
color of law. They all violate due process. Because there has been no court ordered fines or
increase in restitution their imposition is unconstitutional and illegal.
USA and the courts are on a course that indicates they are imposing an infinite amount
as a fine without an hearing, court order or due process of law. Mr. Verkler's withdraw of the
guilty plea took place before the court-imposed sentence and the Defendant did show fair
and just reasons for the withdrawal. USA and the court also unjustly took property without
just compensation. Both the US Constitution and the plea contract require USA and the court to
give credit to Mr. Verkler for what they collect. They even stipulating an amount was collected
then will deny it. The courts wrongfully refuse to address the issues.

27

On 1/12/21 USA, probation and judge Coughenour and Thomas Coe used a false
accusation to conspire to entrap Mr. Verkler, forge his signature and steal payments after
probation legally ended.
At no time did Mr. Verkler receive the protection of the Constitution or the Law.
Although the attorney for him, the courts and USA are obligated to protect Mr. Verkler's rights,
none would make any attempt to fulfill their duty. Instead, they all worked against Mr. Verkler
as the record clearly shows.
18 USC 4 not only makes it a felony for the judges, prosecutors and my attorneys to
refuse to report the crimes against Mr. Verkler it means Mr. Verkler has protection under the
Law and access to the court to report those crimes. It is such protection needs to be restored for
the US to have honor, violating Marburv v Madison. 163. "The federal courts the duty to accord
a person prosecuted... every safeguard which the law accords ..." Sinclair v US. 296-7; Watkins
vUS, 208; Sacher v US. 577; Flaxer v US. 151; Deutch v US. 471; Russell v US. 755. "... the
substantial safeguards to those charged with serious crimes cannot be eradicated under the
guise of technical departures from the rules." Smith v US, 9; Russell v US. 763-6 nl3.
"the absence of an indictment is a jurisdictional defect which deprives the court of its
power to act. Such a jurisdictional defect cannot be waived by a defendant, even by a plea of
guilty." Smith v US, 10; also Ex parte Bain, 13; Ex parte Wilson. 429. The lower court cites US v
Weber, which puts the burden of proof on the government, and they have submitted no legal
evidence, and never charged him thus violating due process, Gregory v Chicago. 112.
In Mr. Verkler's case all the judge asked was, "Do you make these decisions freely and

28

voluntarily? He knew Mr. Verkler was denied pre-trial release, and was not released upon
USA's violation of the Speedy Trial Act or when charges were dismissed or when Mr. Verkler
was illegally held in custody over 90 days against his will without the beginning of trial and
USA stipulated in writing on several occasions multiple times per occasion that weekly
unemployment claims were being filed while Mr. Verkler was in custody which proves he
could not be guilty and he won his case because all the counts were already dismissed with
prejudice, USA stipulated in writing under oath it knowingly and deliberately violated the
Speedy Trial Act, USA voluntarily dismissed the matter 4 times so under FRCP 41 and
stipulated in writing under oath that FRCP 41 applies in this case so Mr. Verkler was not guilty
by adjudication on the merits. In the same hearing the attorney started to say, "Your honor, I
don't - a think this is a knowing, intelligent and voluntary plea. Mr. Verkler reminded the
attorney about USA's threats to kidnap and kill Mr. Verkler's children. The attorney said,
"Your honor, there is one matter. Mr. Verkler is concerned that the government may go after
his children," Franze-Nakamura replied, "That is right. Ms. Shaw alerted me to this issue
yesterday," That is when he filed the Information. That means he filed the Information when
the threats overborn Mr. Verkler's will. Threatening children or love ones is unconstitutional,
illegal and makes a plea involuntary, Guerra v Collins; Tohnson v Renico. 709; Brusbon v US;
Smith v Campbell; also Malloy v Hogan. 7; Cummings v US, 382. "... voluntariness must be
established beyond a reasonable doubt" Mullins v US; US v Inman; Adkins v US: Shelton v US.
26; Machibroda v US, 493; Schautz v Beto. 216, #7,9 a conviction in the Federal courts, obtained
in disregard of liberties deemed fundamental by the Constitution, cannot stand." Boyd v US;
Weeks v US; Gouled v US, 313; Aenello v US. 32; Bvars v US: Grau v US: Me Nabb v US. ?, 343;

29

US v Tackson; Blackledge v Perry. 28-9; US v Groves. 453; US v DeMarco. 1226; US v Oaks, 940;
The "district court erred in allowing forfeitures where neither the indictments
[information or plea contract] mentioned or included [them]" US v Seifuddin: US v MishlaAldarondo. The district court ordered the forfeiture of Mr. Verkler's iMac and allowed the
forfeiture of cash, legal papers and other files and other assets not included in the information,
plea contract or sentence.
The US Constitution never gives anyone in the government power or authority to
commit a crime or a tort, to lie or conspire against any American person. The Supreme Court
could make the greatest advancement for liberty and justice since Martin Luther King Jr's civilright's movement. The Tenth Amendment denies the US government all powers and authority
not specifically given in the US Constitution. As in Agnello v US. 32; Boyd v US. 617, 630, 635;
Byars v US, 32; Gouled v US. 298, 304; Weeks v US; Siverthorne Lumber Co v US: US v
Lefkowitz. 466-7; the Court ruled the amendment merge to expand a person's rights beyond
what each amendment does on its own; Roe v Wade. 152 in a line of decisions the Court has
recognized that the right to privacy goes beyond each individual amendments the Court should
recognize people in government cannot commit a crime, a tort, conspire or he against an
American. Unlawful acts and violations of rights are not to be sanctioned by the courts, Weeks
vUS. 383, 392.
USA is forbidden to use threats or otherwise make a plea involuntary to force a guilty
plea, Machibroda v US. 487, 493, 496; Graham v Conner. 398; Somberger v City of Knoxville;

30

Giuffre v Brissell; Moore v Dempsey. 89-90; as was done in Mr. Verkler's case. The US
Attorney has a duty to refrain from improper methods to produce wrongful conviction.
The court did not explain most the seriousness of the charges. The court did: 1) not call
the charges felonies; 2) not say that USA could attempt to impose a death penalty or attempted
murder; 3) not say the government or court could put extra counts on Mr. Verkler's record for
DWI's, instead the court said USA could not put on extra charges; 4) not say USA could impose
on additional 9.3-month term of imprisonment beyond what was sentenced, instead the judge
said USA could ask for a maximum of a total of 4 years; 5) did not say USA could repeatedly
steal legal papers Mr. Verkler had while he was in custody, there was no such forfeiture nor
abandonment provision, the judge said USA had to follow through with promise to return
many files and papers, but they did not; 6) not say Mr. Verkler could not get all discovery USA
is required to provide by law, instead the judge states several specific files that USA still had to
give Mr. Verkler, USA did not,; 7) not say Mr. Verkler would not get credit for prior amounts
collected, instead the judge said I would get credit for prior amounts collected; 8) not say Mr.
Verkler would not get credit for amounts forfeited or collected after the plea, instead the judge
said Mr. Verkler would get credit towards restitution; 9) not say Mr. Verkler would not get back
property taken by USA that was not forfeited or abandoned, instead the judge said Mr.
Verkler's attorney could go through all the items taken and return everything not listed as
forfeited or abandoned; 10) not say Mr. Verkler would be denied future access to the court; 11)
not say Mr. Verkler could not get legal counsel in the future; 12) not say Mr. Verkler would
have to pay an infinite amount in fines even without a court order, instead the judge said the
maximum fine was $250,000 and the judge ordered no fine; 13) not say USA, the court,

31

probation or a judge could make felony threats against to try to stop him from seeking relief in
the court; 14) not say they could make felony threats and conspire to force Mr. Verkler out of his
home so he would have to move too far away to keep his job and to earn other income. It need
not be established "that there was a formal agreement in government to conspire; circumstantial
evidence and reasonable inferences drawn therefrom concerning the relationship of the parties,
their overt acts, and the totality of their conduct may serve as proof, IIS v Kaczmarek. 1035; US
v Cogwell; US v Whaley. 1476,1476,1477; US v Griffin. 1116; US v Mavo. 1088; US v
Washington, 1153. Only slight evidence to prove that an individual was a member of the
conspiracy, US v Castillo, 353; US v Gironda. 1217; US v West, 685; US v Robinson, 123; US v
Marrapese, 921; US v Nunez, 460; US v Braasch. posture, 141-2,148,151. No direct evidence
is needed, Glasser v US, 80; US v Manton. 839. It is not necessary to prove an overt act, US v
Diaz, 79;
The courts overlooked that in USA's plea agreement and in USA's Information, USA
stipulated Mr. Verkler did not steal nor purloin. In Washington State where USA stipulates the
alleged activity took place a conversion is a tort, it is not a crime, Informal Reply Brief p 2.
Felony convictions should not have been put on Mr. Verkler's record. An indictment does not
eradicate any deprivation of constitutional rights, US v King, 776, and Mr. Verkler was not
indicted or charged.
It was proven: the lawyers, judges, magistrates, prosecutors, prison staff, clerks, court
employees, tax collectors (also: police, sheriffs, Director of Business License Bureau, marshals,
secret service agents, custom officials, Department of Agriculture officers, politicians and their

32

employees, lobbyists, financial analyst, or any public official, any individual in the public sector
or any entity in the public sector, Office of the Governor, even entire departments, courts,
municipality, utility or corporation) in Mr. Verkler's case they cannot be allowed to: commit a
crime or conspiracy, a tort or lie like: kidnapping, illegal gun use, delay in arraignment or in
trial, indefinite detainment, punishment prior to judgment of conviction, false conviction, false
imprisonment, attempted murder, subterfuge, pretext, lying, filing false income tax forms,
RICO, extortion, force an involuntary guilty plea, threats not even against loved ones, a
shakedown, theft of documents, theft, robbery, conversion, to harm, failure to do duty to use all
lawful means to prevent injury, collect unlawful debt, embezzlement, skim money, receipt or
possession of stolen goods, corruption, scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses, representations, or promises, untoward
blandishments, obstruction of the enforcement of criminal law, obstruction of justice,
unauthorized exercise of power, exceeding official power, violating a law relating to office,
cover-up, mutilate or conceal files, false statements in court, perjury, withholding evidence,
falsifying evidence, skullduggery, planting evidence, tax fraud, falsifying documents, falsifying
the docket, fabricating stories or evidence, forgery, inducing a witness to testify falsely,
intimating a witness, witness tampering, depriving of honest or faithful of government services,
various types of governmental interference that deprive the defendant of the right to witnesses,
deprivation of rights, fraud, dishonesty, misrepresentation (including unfulfilled or
unfulfillable promises), refusal to due one's duty, under color of official right, or any crime
under color of law, to sell, dispose of, alter, give away, for the purpose of executing such
scheme or artifice or attempting so to do, or perhaps by promises that are by their nature

33

improper, conspiracy, and no claim that a statement was obtained without coercion or
accurately recorded and relevant can make it admissible and it is on overriding concern that
effective sanctions be imposed against illegal arrest and detention as was done against Mr.
Verkler (also cannot: bribe, attempt to illegally solicit, blackmail, third degree, road rage,
assault, battery, murder, torture, promises to discontinue improper harassment, fabricated
evidence, false or misleading testimony, no claim that a statement was obtained without
coercion or accurately recorded and relevant can make it admissible and it is on overriding
concern that effective sanctions be imposed against illegal arrest and detention, punishment
prior to judgment of conviction, a shakedown, use of the spoils system, kickbacks, payoffs, or to
sell, dispose of, loan, exchange, distribute, supply, or furnish or procure for unlawful use any
counterfeit or spurious coin, obligation, security, or other article, sexual favors, prostitution,
drug crimes, illegally gamble, mail fraud, wire fraud, or anything represented to be or intimated
or held out to be such counterfeit or spurious article, for the purpose of executing such scheme
or artifice or attempting so to do) and they should get a more severe punishment and citizens
have a right to good government, Brady v Maryland. 86, 87; Brady v US. 755; Brown v Miss..
281-7; Bynum v US, 466-7; Carpenter v US., 571, 572; Corley v US. 309; Cote v US. 793; Ginoza v
US, outcome; Govt of Virein Is v Solis. 620-1; Miranda v AZ. 447: Napus v Illinois. 269, 271-2;
US v Ternigan, 1213-4; US v Margiotta. 132-3, #1,2,4,5,8-10,84; US v Mayes, outcome; US v
Middleton, overview; US v Mitchell, 67, 70, 88; US v Morales, outcome, 851-3; US v Osunde.
overview, 173,175-7, ?; US v Sotoi-Lopez: Upshaw v US. 413, summary; McNabb v US. 344; US
v Roth, 1383,1386; Branion v Gramlv: US v LeFevour. 979; US v Devine: US v Connecticut: US
v Murphy. 1525-8; Salinas v US. 63-5; US v Nardello. 286-9; US v Ruiz. 508, 3, 39, 40; US v

34

Angelilli, 30-5, #1-2; US v Bacheler. 450, #1,2,35; US v Frumento, 7-1092, #2; US v Mazzei.643-4.
#1,17, 37; United States v. Twigg. 381; US v Altomare, 7-8; US v Baker. #1, 9; US v Long. 241-2,
#1,2,21; Shelton v US. 572 n2; US v Brown, 262; US v Dozier. 543 n8, #1-14,16, 32,114-5; US v
Hathaway, 393; US v Hammond, 1012-3; Webb v Texas. 95; US v Heller, 152-3; US v Wright; US
v Dischner, 1511,1515 n 15, #2-5,8,21,26, 51-2,61; US v Bagnariol, 1, 85; Marrow v US: US v
Whalen. 1348; US v Olinger: US v Guest. 745; Wilkins v US: US v Ehrlichman; US v
Tacquermain; US v Romero: US v McFall. posture; US v Byrne; 18-20; US v Ronda; US v Vega;
US v Ferreira, 51; US v Black: Wolfish v Levi, 118; Cupit v Tones: Matzker v Hen; Duran v
Elrod.; Green v Baron; Tohnson-El v George; Villanueva v George; Berry v Muskogee;
Sampson v Schench; Sutton v US: US v Lefkowitz, 464; Taglavore v US. 265; Warren v Lincoln;
Ferrara v US, 26thpg; Missouri v Blair: US v Partida. 562, #2,83,89; US v Welch. 1039-47,1057,
1059,1060,1062,1064-5, 1067-70,1,A,C,D,III A,1,C,1,D,1,2 (5th Cir 1981); US v Sivils. 596,
#2,23,73; US v Thompson. 998-1000, #2,39,45,53-6, 69; US v Grzvwacz. 686-7, 690, #1-10,12-20,2225,29,36; US v Hocking. 769, 777; US v Lee Stoller Enterprises. Inc.. 1317-9,1-4,10,12; US v
Masters; US v Rindone, 491, 494-5; US v Schmidt, posture, 830-2; US v Shamah. overview, 451-2,
455, 457-9; US v Tacquemain: US v Clark. 1261-7, #3,4,28; US v Bordallo. #1,3-6,8,27,45,50; USv
Egan, #2,18; US v Gates. #1-2, 34-5, 38; Diaz v Gates. #1.2, 22, 26; US v Ohlson. 1349, #2. 9; USv
Graham, #1,8; ("The court noted that is sees a 'ton of police misconduct cases' and many police
officers that had come before the court had long records of citizen complaints") US v Carson.
posture, 570-2, 590; US v Townsend: US v Zwick. 685; Sutton v US "... those who commit
crimes themselves cannot prosecute other's crimes." see US v Blackwood. 134-6, #2,3,7,60; US v
Holzer. 305-7, 310; US v Rabbitt. 1019-21,1026. For USA to lie is plain error, US v Lane. 1399.

35

"Case must be remanded for full consideration of delay between defendant's arrest and his
appearance before magistrate..." US v Keeble.
According to the Law Mr. Verkler was a victim of kidnapping, indefinite detainment,
delay in arraignment, RICO, extortion, threats even against loved ones, false statements in
court, withholding evidence, falsifying documents, depriving the defendant of the right to
witnesses, deprivation of rights, fraud, misrepresentation (including unfulfilled promises), by
promises that are by their nature improper or any crime under color of law, refusal to due one's
duty, under color of official right. Mr. Verkler kept telling judges, attorneys and officers of
USA's kidnapping of him and they went along with keeping Mr. Verkler in detention makes
them guilty, US v Broadwell. 602; Graham v Conner. 395.
To convict police for providing false and misleading officers are not protected from false
statements in future prosecutions... need to prove any state of mind with respect to the
circumstances that the judge or law enforcement officer is an officer or employee of the Federal
Government. US v Veal, overview, 1233,1248, also US v Guadalupe; see US v Tines. 893; US v
Vaden, 781; US v Bigham; US v lackson. 928.
"... a [government] defendant may be found gruilty of conspiring... even if the
defendant did not join the conspiracy until after its inception and even if the defendant played
only a minor role in the whole scheme... defendant is bound by all acts of other co-conspirators
that occurred during the conspiracy, even if those acts were unknown to the defendant." US v
Broadwell. 602 and do not need to know the others in the conspiracy US v Wilson. 1253; US v
Andrews, 1496; US v Holloway. 679; US v Scrushv, 468. As in Re Oliver, 273 the courts decided
to keep secrets from the public. "... it was not necessary to prove that they knew their conduct

36

was unlawful. US v Reese; US v Barker; US v Brown, 415; US v Burchinal. 992, #28; US v Winter,
1136; US v Cruz. 782-3; US v DeVincent. 159; US v Torres Lopez, 524; US v Angiulo. slip op at
14-15. "Uncharged acts [against government officers] may be admissible as direct evidence of
the conspiracy itself." US v Diaz, 79; US v Castro; US v Matera, 121; US v Mejia, 206-7. "The
overt act... need not be itself a crime." Bannon & Mulkev v US. 468, 469; Toplin Mercandile Co.
v US; US v Rabinowich. 86; Pierce v US. 244; Braverman v US. 53; "18 USC 241 does not require
that any overt act be shown" US v Morado; US v Skillmen; US v Whitney; US v Ellis; US v
Bufalino: US v Cola, 1124; nor an overt agreement US v Weiner. No direct evidence is needed,
Glasser v US. 80; US v Manton. 839; US v Hinojosa; only circumstantial evidence US v Zang.
1191; Tordan v US. 128; US v Hampton; and hearsay declarations of co-conspirators are
admissible against other members of the conspiracy..." US v Nixon, 701; US v Feliziani. 1046.
"... a conspirator is liable for acts undertaken by a co-conspirator in furtherance of their
conspiracy." US v Chambers. 913-4; US v Craig; US v Toney. 1355; Dickerson v US Steel Corp.
67.... If a party has the potential to stop illegal activity but fails to act to do so, and sits idly by,
then that party may be said to have impliedly conspired in such illegalities. ... it is not required
to prove exact details of the agreement." US v Odiz...; US v Weilner...; US v AriansIzquierdo...; US v Romero....; Crowe v Lucas, 993; Hunt v Weatherbee....; Gooch v US; Fritts v
US; Pinkerton v US. 640; Carpenter v US, 571, 572.

In Mr. Verkler's case, court records were falsified by putting false entries on the docket
and removing true entries from the docket and stealing filed documents from the court records
and dates of filings were falsified and the order changed all to deny Mr. Verkler justice and due

37

process and commit crimes against him. The court mled these acts are criminal and the clerk's
conviction was upheld, US v Conn. 420-1, 423, 425; US v Bagnariol. 893, #18; US v Twigg, 381.
Also, US v DiSalvo, proc posture, 1211, 1244; US v Polizzi. 1548; US v Nakaladski. 298; US v
Natale, 1168-9; US v Sears, 587; Salinas v US. 63-5; US v Nguyen. 1341.

Mr. Verkler filed to dismiss attorney Thomas Coe for refusing to work on Mr.
Verkler's behalf and plotting to find Mr. Verkler guilty. Mr. Verkler filed to dismiss
Coe, get subpoenas for several adverse witnesses and for discovery. Coughenour
refused to allow them to be docketed and refused to rule on them. That violates Fed.
Rule of Crim. Proc. 49(b)(5) that requires everything received by the court to be
docketed. It means Coughenour and others deliberately commit the felony crime of
theft of court records from the court files in violation of 18 USC 1506. Coughenour is
knowingly and deliberately falsifying the docket by stealing/deleting entries from the
docket.

38

CONCLUSION

There are many categories of reasons to rule in George Verkler’s favor. These
categories each have multiple reasons to rule in Mr. Verkler’s favor. Any one of these
reasons alone would be enough to rule in George Verkler’s favor.
It is important to rule in George Verkler’s favor especially the last issue that: the
government and no one in it has the right, authority or power to commit a crime, a tort,
to conspire or lie against any American person. The fate of America is riding on your
decision.
It does not matter whether a person looks at opinions with judges with the
original founding father, or opinions with current judges or anywhere in between or look
at Supreme Court or any Circuit Court or other courts all published opinions favor
George Verkler.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

JZ{?

Date:

39

